APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the Supreme Court of
California
(August 31, 2020) . . . . . . . . . . . . . App. 1
Appendix B Opinion in the Court of Appeal of the
State of California, First Appellate
District, Division Two
(April 25, 2018) . . . . . . . . . . . . . . App. 69
Appendix C Order Sustaining Respondent Marin
Housing Authority’s Demurrer to
Petitioner’s Amended Verified Petition
for Writ of Administrate Mandate and
Writ of Mandate
(November 4, 2016). . . . . . . . . . . App. 92
Appendix D Judgment Dismissing Petitioner’s
Amended Verified Petition With Prejudice
(November 4, 2016). . . . . . . . . . . App. 96
Appendix E Section 8 Informal Hearing Decision
Marin Housing Authority
(September 8, 2015) . . . . . . . . . . App. 98
Appendix F Marin Housing Authority’s Letter
Regarding Request for Rehearing,
Further Hearing, or Appeal sent to K.
Reilly
(October 7, 2015) . . . . . . . . . . . . App. 111

ii
Appendix G Statutory and Regulatory Provisions
Involved. . . . . . . . . . . . . . . . . . . App. 114
42 U.S.C. 1437a . . . . . . . . . . App. 114
42 U.S.C. 1437f . . . . . . . . . . App. 116
42 U.S.C. 1396n . . . . . . . . . . App. 119
24 C.F.R. 5.609 . . . . . . . . . . App. 119
24 C.F.R. 982.201 . . . . . . . . App. 127
Cal. Welf. & Inst. Code § 12001
. . . . . . . . . . . . . . . . . . . . . . . App. 128
Cal. Welf. & Inst. Code § 12002
. . . . . . . . . . . . . . . . . . . . . . . App. 128
Cal. Welf. & Inst. Code § 12300
. . . . . . . . . . . . . . . . . . . . . . . App. 129
Cal. Welf. & Inst. Code § 14132.951
. . . . . . . . . . . . . . . . . . . . . . . App. 132
Appendix H Brief of the United States as Amicus
Curiae Supporting Marin Housing
Authority in the Supreme Court of the
State of California
(April 16, 2019) . . . . . . . . . . . . . App. 134

App. 1

APPENDIX A
IN THE SUPREME COURT OF
CALIFORNIA
S249593
[Filed: August 31, 2020]
__________________________________________
KERRIE REILLY,
)
)
Plaintiff and Appellant,
)
)
v.
)
)
MARIN HOUSING AUTHORITY,
)
)
Defendant and Respondent. )
__________________________________________)
First Appellate District, Division Two
A149918
Marin County Superior Court
CIV 1503896
August 31, 2020
Justice Chin authored the opinion of the Court, in
which Justices Liu, Cuéllar, and Groban concurred.
Chief Justice Cantil-Sakauye filed a dissenting opinion,
in which Justices Corrigan and Kruger concurred.

App. 2
Opinion of the Court by Chin, J.
The federal Housing Choice Voucher program is a
key program in section 8 of the United States Housing
Act of 1937. (42 U.S.C. § 1437 et seq., as amended by
§ 201(a) of the Housing and Community Development
Act of 1974.) Commonly referred to as “Section 8,” the
program provides low-income families a monthly
subsidy to pay for a portion of their rent. The amount
of the subsidy depends, in part, on the income Section
8 families receive. The program, which is funded and
regulated by the United States Department of Housing
and Urban Development (HUD), is administered locally
by public housing authorities (PHAs). In this case, we
address whether a Section 8 beneficiary’s compensation
for providing in-home care for a severely disabled adult
daughter should be excluded from income in calculating
the rental subsidy. For reasons that follow, we conclude
that it should be excluded and reverse the Court of
Appeal’s judgment.
FACTUAL AND PROCEDURAL BACKGROUND
In 1998, plaintiff Kerrie Reilly and her two
daughters moved into a three-bedroom apartment in
Novato and began receiving Section 8 housing
assistance payments to subsidize their monthly rent.
Reilly has an adult daughter, K.R., who is severely
disabled and requires constant supervision. Reilly
receives compensation to provide in-home supportive
care for K.R. through the state and federally funded
In-Home Supportive Services (IHSS) program.
In 2004, Reilly’s other daughter, R.R., moved out of
their subsidized apartment, but Reilly did not inform

App. 3
the Marin Housing Authority (MHA), which is
responsible for administering Reilly’s Section 8
voucher. Five years later, when Reilly told MHA that
R.R. no longer lived with her, MHA advised her that
her failure to report her daughter’s leaving constituted
a violation of the program rules. Reilly could only stay
in the government-subsidized apartment if she paid
approximately $16,000 in damages to MHA.
Reilly agreed to pay MHA in monthly installments,
initially starting at $486 and eventually lowered to
$150 per month at Reilly’s request. In 2010, after Reilly
missed an installment payment, MHA warned her that
future missed payments would result in termination of
her housing assistance. Reilly missed multiple
payments in 2012, 2014, and 2015.
In 2015, Reilly requested that MHA recalculate her
rent and exclude her IHSS compensation from “income”
under the relevant federal regulation. (See 24 C.F.R.
§ 5.609(c)(16) (2020).) MHA did not respond to this
request, but instead served Reilly a notice of
termination of her Section 8 voucher. After a hearing
on MHA’s decision to terminate Reilly’s housing
voucher, the hearing officer upheld the agency’s
decision, noting that Reilly’s failure to pay amounts
under the settlement agreement constituted grounds
for terminating her housing assistance. The hearing
officer did not address whether the IHSS compensation
counted as income, however.
On October 26, 2015, Reilly filed a petition for writ
of mandate seeking an order requiring MHA to
terminate her repayment plan and reinstitute her
Section 8 voucher; she also sought an administrative

App. 4
writ ordering MHA to terminate the repayment plan
and exclude Reilly’s IHSS payments in calculating her
income going forward. The trial court rejected Reilly’s
assertion that IHSS payments were excepted from the
meaning of “annual income” (24 C.F.R. § 5.609(c)(16)
(2020)). It sustained MHA’s demurrer without leave to
amend, and the CA affirmed the judgment. (Reilly v.
Marin Housing Authority (2018) 23 Cal.App.5th 425.)
Both lower courts ordered “a stay in the enforcement of
the administrative order terminating Reilly’s Section 8
benefits.” MHA later agreed to an extension of this stay
pending review in this court.
We granted review, limited to the issue whether
IHSS payments should be excluded from “annual
income” for purposes of calculating a Section 8
beneficiary’s home assistance payment.
DISCUSSION
A. Overview of Section 8 voucher program
In 1974, Congress added the Section 8 housing
program to the United States Housing Act of 1937 “[f]or
the purpose of aiding low-income families in obtaining
a decent place to live.” (42 U.S.C. § 1437f(a); see
generally Friedman et al., Cal. Practice Guide:
Landlord-Tenant (The Rutter Group 2019) ¶ 12.) The
program gives eligible families either “tenant-based” or
“project-based” rent subsidies administered locally
through PHAs. (See Park Village Apartment Tenants
Ass’n v. Mortimer Howard Trust (9th Cir. 2011) 636
F.3d 1150, 1152–1153 [overview of Section 8 housing
assistance].) “‘[T]enant-based assistance’” is a rent
subsidy that is tied to a specific family even if the

App. 5
family moves to other suitable housing. (42 U.S.C.
§ 1437f(f)(7).) “‘[P]roject-based assistance,’” on the other
hand, is tied to a specific housing development or unit.
(42 U.S.C. § 1437f(f)(6).) We focus on tenant-based
assistance, which is at issue in this case.
Under the tenant-based assistance program, at
least 75% of all admitted families must be “[e]xtremely
low[] income,” i.e., their income may not exceed 30% of
the median income calculated by HUD for the relevant
area (24 C.F.R. § 5.603(b) (2020)); and all remaining
admitted families must be “[l]ow income,” i.e., their
income may not exceed 50% of the median income.
(Ibid.; id., § 982.201(b)(1), (2)(i) (2020) [eligibility and
targeting].)
After a Section 8 family selects an eligible rental
unit approved by the applicable PHA, the PHA enters
into a contract with the rental property owner. That
owner “functions as a landlord in the private rental
market. The owner signs a lease with the Section 8
tenant (which includes a HUD Lease/Tenancy
Addendum) and also signs a Housing Assistance
Payments (HAP) contract with the Housing Authority.”
(Apartment Assn. of Los Angeles County, Inc. v. City of
Los Angeles (2006) 136 Cal.App.4th 119, 123.) The PHA
gives the subsidy payments directly to the property
owner. (24 C.F.R. § 982.311(a) (2020).)
As we explain below (see post, at p. 8), the amount
of the housing subsidy depends in large part on the
“annual income” the Section 8 family receives or
expects to receive. (See 24 C.F.R. § 5.609(a) (2020); id.
§ 982.201(a), (b) (2020).) The issue is whether the IHSS
payments Reilly receives to provide services to keep her

App. 6
developmentally disabled daughter at home are
excluded from income under 24 Code of Federal
Regulations part 5.609(c)(16) (2020).
B. IHSS
IHSS is a state social welfare program implemented
under The Burton-Moscone-Bagley Citizens’ Income
Security Act for Aged, Blind and Disabled Californians,
enacted in 1973. (Welf. & Inst. Code,1 § 12000 et seq.,
added by Stats. 1973, ch. 1216, § 37, p. 2904; see
County of Sacramento v. State of California (1982) 134
Cal.App.3d 428, 430–431.) The purpose of the
legislation is to give the aged, blind and disabled the
“assistance and services which will encourage them to
make greater efforts to achieve self-care and
self-maintenance, whenever feasible, and to enlarge
their opportunities for independence.” (§12002.) IHSS
is specifically “designed to avoid institutionalization of
incapacitated persons.” (Basden v. Wagner (2010) 181
Cal.App.4th 929, 931.) Providers perform nonmedical
supportive services for IHSS recipients, such as
domestic services, personal care services, protective
supervision, and accompaniment to health-related
appointments. (§ 12300; see Miller v. Woods (1983) 148
Cal.App.3d 862, 867, disapproved on other grounds by
Noel v. Thrifty Payless, Inc. (2019) 7 Cal.5th 955, 986,
fn. 15.)
“IHSS is actually provided under three programs:
the original IHSS program (the residual program)
(§ 12300 et seq.); the Medi-Cal personal care services
1

All further statutory references are to Welfare and Institutions
Code unless otherwise noted.

App. 7
program (PCSP) (§ 14132.95); and the IHSS Plus
waiver program (§ 14132.951).[2] The latter two
programs tap into federal funds, and IHSS recipients
will receive services under the residual program only if
they do not qualify under the other two programs.
(§§ 12300, subd. (g); 14132.95, subd. (b); 14132.951,
subd. (d).)” (Basden v. Wagner, supra, 181 Cal.App.4th
at p. 933, fn. 4; see 2 Dayton et al., Advising the
Elderly Client (2019) § 22:40 (Advising the Elderly
Client); Calderon v. Anderson (1996) 45 Cal.App.4th
607, 609–610.)
The State Department of Social Services
(Department) administers the IHSS program in
compliance with state and federal law. The Department
promulgates regulations to implement the relevant
statutes, which are set out in its Manual of Policies and
Procedures: Social Services Standards (July 2019)
(MPP). (MPP, §§ 30-700 to 30-785; see Norasingh v.
Lightbourne (2014) 229 Cal.App.4th 740, 744–745.)
County welfare departments administer the IHSS
program with the Department’s supervision, and
determine an applicant’s individual needs to authorize
necessary services. (Norasingh v. Lightbourne, at pp.

2

Section 14132.951, subdivision (a) provides: “It is the intent of the
Legislature that the State Department of Health Services seek
approval of a Medicaid waiver under the federal Social Security
Act in order that the services available under Article 7
(commencing with Section 12300) of Chapter 3, known as the
In-Home Supportive Services program, may be provided as a
Medi-Cal benefit under this chapter to the extent federal financial
participation is available. The waiver shall be known as the ‘IHSS
Plus waiver.’”

App. 8
744–745; see MPP, § 30-761 [needs assessment
standards].)
A county welfare department may either obtain and
pay directly a provider of the supportive services, or
pay the recipient who hires one. (Basden v. Wagner,
supra, 181 Cal.App.4th at p. 940 [when state pays
provider or recipient directly, it assumes certain
“‘employer’ duties”]; MPP, § 30-763.44.) Or, as in this
case, it may compensate the parent who provides
in-home care to her disabled child. (See § 12300, subd.
(e); MPP, § 30-763.45 et seq.; see also Fam. Code,
§ 3910, subd. (a) [parent’s responsibility extends to a
“child of whatever age who is incapacitated from
earning a living and without sufficient means”].) It
bears noting that “[t]he vast majority of home care is
provided by family and friends.” (Advising the Elderly
Client, supra, § 22:17.)
Reilly’s daughter suffers from a severe
developmental disorder and obtained authorization for
protective supervision, i.e., 24-hours-a-day supervision
that allows her to remain at home safely. (§ 12301.21;
MPP, § 30-757.173.) Protective supervision involves
“observing recipient behavior and intervening as
appropriate in order to safeguard the recipient against
injury, hazard, or accident.” (MPP, § 30-757.17; see
Marshall v. McMahon (1993) 17 Cal.App.4th 1841,
1847 [“‘Protective supervision’ appears to be similar to
care given small children, that is, anticipating
everyday hazards and intervening to avert harm”].)
Such supervision is available for “nonself-directing,
confused, mentally impaired, or mentally ill persons
only.” (MPP, § 30.757.171; see Marshall v. McMahon,

App. 9
at p. 1847; Calderon v. Anderson, supra, 45
Cal.App.4th at p. 616.) There is no dispute that Reilly’s
adult daughter was entitled to IHSS services, or that
Reilly was authorized to receive IHSS compensation for
providing those services to her.
C. HUD regulation on “Annual Income” and
its exclusions
The applicable federal regulation defines “annual
income” broadly, as “all amounts, monetary or not.” (24
C.F.R. § 5.609(a) (2020).) For example, income includes
“compensation for personal services” (id., § 5.609(b)(1)
(2020)) and “[p]ayments in lieu of earnings, such as
unemployment and disability compensation, worker’s
compensation, and severance pay” (id., § 5.609(b)(5)
(2020)). However, income does not include such
amounts as “specifically excluded” under the
regulation. (Id., § 5.609(a)(3) (2020).) There are 16 such
exclusions. (Id., § 5.609(c)(1)–(17) (2020).)
“An extensive set of statutory provisions and
regulations governs the calculations of the subsidy that
must be paid on behalf of each tenant.” (Nozzi v.
Housing Authority of City of Los Angeles (9th Cir. 2015)
806 F.3d 1178, 1184.) In general, Section 8 tenants
must contribute 30% of their monthly adjusted income
or 10% of their gross monthly income, whichever is
greater, towards each month’s rent. (42 U.S.C.
§ 1437f(o)(2)(A).) The housing assistance payment
covers the balance of the rent, up to a statutorily
capped amount. (Nozzi v. Housing Authority of City of
Los Angeles, at pp. 1184–1185.)

App. 10
We do not examine the underlying method used to
calculate the rental subsidy, however, but focus on
whether Reilly’s IHSS compensation for care of her
disabled daughter is “specifically excluded” (24 C.F.R.
§ 5.609(a)(3) (2020)) from income as “[a]mounts paid by
a State agency to a family with a member who has a
developmental disability and is living at home to offset
the cost of services and equipment needed to keep the
developmentally disabled family member at home” (id.,
§ 5.609(c)(16) (2020), italics added). The parties do not
dispute that if Reilly’s daughter received IHSS care
from a third party rather than a family member, such
amounts paid would qualify under the exclusion. MHA
argues that for the exclusion to apply, however, a
family must incur costs for hiring someone because
only then would the “[a]mounts paid” by the state to a
family truly “offset” those “cost[s].” (24 C.F.R.
§ 5.609(c)(16) (2020); see In re Ali (Minn. 2020) 938
N.W.2d 835, 840 (Ali) [“Cost means an actual monetary
expense . . . incurred by the family to keep the disabled
family member living at home”].) Because the state
pays Reilly to provide care for her own daughter and
not to hire a third party provider, MHA maintains
there is no actual “cost” to Reilly for such services, and
consequently, there is nothing to “offset.”
1. Meaning of “Offset” & “Cost”
MHA’s interpretation is based in part on the
dictionary definition of “offset,” which generally means
to counterbalance or compensate for something. (See
Steinmeyer v. Warner Cons. Corp. (1974) 42 Cal.App.3d
515, 518.) Echoing the Court of Appeal, MHA asserts
that payments by the state must offset costs the family

App. 11
itself incurs to keep a developmentally disabled
member at home; “[o]therwise the payment does not
counterbalance or compensate for the costs of services.”
As MHA puts it, “the payment must go to the same
entity that incurs the cost of those services.” MHA
further insists that “cost” is a monetary term that does
not encompass emotional costs Reilly bears in caring
for her daughter, nor any lost opportunity costs when
Reilly forgoes outside employment to be her daughter’s
IHSS provider.
We disagree with MHA’s interpretation. Unlike the
word “reimburse,” which means to “pay back or
compensate (another party) for money spent or losses
incurred” (American Heritage Dict. (5th ed. 2020) p.
1214, italics added), “offset” is not similarly restrictive.
(See Briggs v. Eden Council for Hope & Opportunity
(1999) 19 Cal.4th 1106, 1117 [“Where different words
or phrases are used in the same connection in different
parts of a statute, it is presumed the Legislature
intended a different meaning”].) For example, the term
“reimbursement” is used in two other exclusions. (24
C.F.R. § 5.609(c)(4), (8)(iii) (2020).) Consistent with the
meaning of “reimburse,” those exclusions refer to
compensation of specific, discrete amounts, e.g., “the
cost of medical expenses” (id., § 5.609(c)(4) (2020)) and
“out-of-pocket expenses” to participate in a publicly
assisted program (id., § 5.609(c)(8)(iii)).
While the term “reimburse” suggests there may be
full recompense for any out-of-pocket expenses a family
incurs under those exclusions, “offset” as used here
does not necessarily reflect that same meaning. (See
Briggs v. Eden Council for Hope & Opportunity, supra,

App. 12
19 Cal.4th at p. 1117.) Here, what is “offset” is the “cost
of services and equipment needed to keep the
developmentally disabled family member at home.” (24
C.F.R. § 5.609(c)(16) (2020).) “[C]ost,” in turn, is
defined to include both “an amount paid or required in
payment for a purchase; a price” and “the expenditure
of something, such as time or labor, necessary for the
attainment of a goal.” (American Heritage Dict., supra,
at p. 454.) Whether a family uses homecare payments
to support itself so that it may care for a
developmentally disabled member at home, or instead
uses the funds to pay a third party to provide care for
some of the time, these payments do no more than
“offset” the “cost” of services and equipment needed to
avoid institutionalization, costs that are not otherwise
specified or limited. (24 C.F.R. § 5.609(c)(16) (2020).)
Further, contrary to MHA’s suggestion, “cost” in
this exclusion (24 C.F.R. § 5.609(c)(16) (2020)) does not
have the same meaning as “cost” used in other
provisions of the regulation. For instance, “actual cost
of shelter and utilities” (24 C.F.R. § 5.609(b)(6)(ii)
(2020)) and “cost of medical expenses for any family
member” (id., § 5.609(c)(4) (2020)) both refer to
discrete, monetary amounts. “[T]he presumption that
‘identical words used in different parts of the same act
are intended to have the same meaning . . . readily
yields whenever there is such variation in the
connection in which the words are used as reasonably
to warrant the conclusion that they were employed in
different parts of the act with different intent.’”
(Roberts v. Sea-Land Services, Inc. (2012) 566 U.S. 93,
108.)

App. 13
2. Rulemaking history of 24 Code of Federal
Regulations par 5.609(c)(16) (2020)
This interpretation of the terms “offset” and “cost”
is also consistent with the rulemaking history of 24
Code of Federal Regulations part 5.609(c)(16) (2020).
(See 60 Fed.Reg. 17388–17395 (Apr. 5, 1995)
[“Combined Income and Rent”; interim rule as
precursor to 24 C.F.R. § 5.609(c)(16) (2020)]; 61
Fed.Reg. 54492–54504 (Oct. 18, 1996) [final rule]).
Though the Court of Appeal found this history to be
unhelpful and not illuminating, we do not share that
view. (See Thomas Jefferson Univ. v. Shalala (1994)
512 U.S. 504, 512 [relevance of agency’s “‘intent at the
time of the regulation’s promulgation’”].)
In 1995, HUD published an interim rule proposing
eight new income exclusions — among them the
homecare payments exclusion — to the definition of
annual income under Section 8 and other assisted
housing programs. (See 60 Fed.Reg. 17388–17395 (Apr.
5, 1995); 24 C.F.R. § 5.609(c) (2020).) It determined
that the new exclusions “are essential for achieving its
goals of ensuring economic opportunity, empowering
the poor and expanding affordable housing
opportunities. Moreover, HUD believes that the costs of
additional exclusions will be offset by long-term future
savings because the exclusions will increase the
number of economically self-sufficient families residing
in assisted housing.” (60 Fed.Reg. 17388, italics added.)
Regarding the “homecare payments” exclusion in
particular, HUD explained that the “exclusion exempts
amounts paid by a State agency to families that have
developmentally disabled children or adult family

App. 14
members living at home. States that provide families
with homecare payments do so to offset the cost of
services and equipment needed to keep a
developmentally disabled family member at home,
rather than placing the family member in an
institution. Since families that strive to avoid
institutionalization should be encouraged, and not
punished, the Department is adding this additional
exclusion to income. The Department wishes to point
out that today’s interim rule does not define
‘developmentally disabled’ since whether a family
member qualifies as developmentally disabled, and is
therefore eligible for homecare assistance, is determined
by each individual State.” (60 Fed.Reg. 17388, 17389
(Apr. 5, 1995), italics added.)
In finalizing the rule and responding to public
comment that “‘developmentally disabled children’” and
“‘adult family members’” should be expressly defined,
HUD rejected the suggestion as unnecessary: “There is
no need for HUD to define these terms, as they are
defined by the State program providing the payments.
If the family is receiving such a payment from the State
because a family meets the criteria of the definition, the
[public housing authority] should consider the family
eligible for the exclusion.” (61 Fed.Reg. 54492, 54497
(Oct. 18, 1996), italics added.)
We find several points from this rulemaking history
to be significant. As to the meaning of “offset,” HUD
recognized that states that make payments for in-home
services “do so to offset the cost” to the family keeping
the developmentally disabled member at home “rather
than placing the family member in an institution.” (60

App. 15
Fed.Reg. 17388, 17389 (Apr. 5, 1995).) Significantly,
HUD here did not use “cost” and “offset” in terms of a
specific monetary expense or amount a Section 8 family
incurs, but in a broad sense with respect to describing
the overall objective of the exclusion. HUD regarded
homecare payments as reducing or offsetting costs to
families caring for developmentally disabled
individuals, costs that would be borne by state and
federal governments if the family member were
institutionalized. (See Perkins & Boyle, Addressing
Long Waits for Home and Community-Based Care
Through Medicaid and the ADA (2001) 45 St. Louis U.
L.J. 117, 119 [“Most states have reduced costly
institutional care by shifting some public funding to
home and community settings”].)
This background clearly informs the interpretation
of 24 Code of Federal Regulations part 5.609(c)(16)
(2020). The language of the regulation (“amounts paid
by a State agency . . . to offset the costs of services and
equipment needed to keep the developmentally disabled
family member at home” [italics added]) closely tracks
this rulemaking language (“States that provide families
with homecare payments do so to offset the costs of
services and equipment needed to keep a
developmentally disabled family member at home,
rather than placing the family member in an
institution”) (60 Fed.Reg. 17388, 17389, italics added),
and the italicized phrases at issue here are identical.
The only express limitation HUD has placed on this
exclusion is that the in-home care payments must be
for services and equipment needed to keep the
“developmentally disabled” family member at home.

App. 16
(See post, at pp. 15–16.) Even then, HUD found “no
need” to define what “developmentally disabled” meant,
and instead left this up to the states to decide. (61
Fed.Reg. 54492, 54497 (Oct. 18, 1996; see 60 Fed.Reg.
17389 (Apr. 5, 1995) [“whether a family member
qualifies as developmentally disabled, and is therefore
eligible for homecare assistance, is determined by each
individual State”].) From HUD’s perspective, “If the
family is receiving such a payment from the State
because a family member meets the criteria of the
definition, the [public housing authority] should
consider the family eligible for the exclusion.” (61
Fed.Reg. 54492, 54497, italics added.)
Notwithstanding the general rule that exclusions
from income should be construed narrowly (see
Commissioner v. Schleier (1995) 515 U.S. 323, 328), we
find no indication that HUD intended a narrow
construction of the homecare payments exclusion. We
perceive no reasoned basis — including any basis
informed by the regulation’s language — why HUD
would single out a parent provider’s compensation as
unworthy for income exclusion. Rather, we find HUD’s
stated goals of encouraging families to avoid the
institutionalization of developmentally disabled
individuals through the addition of this exclusion (60
Fed.Reg. 17388, 17389 (April 5, 1995)), and more
globally of “ensuring economic opportunity,
empowering the poor and expanding affordable housing
opportunities” (60 Fed.Reg. 17388), would be furthered
by permitting all homecare payments for services to
keep developmentally disabled family members at
home — whether the provider is a family member or
third party — to be excluded from the meaning of

App. 17
“annual income.” (24 C.F.R. § 5.609(c)(16) (2020).) By
allowing these families to realize the full benefit of the
homecare payments without facing a corresponding
increase in rent, the exclusion would operate as
intended by not penalizing families who take on the
onus of caring for a developmentally disabled family
member at home.
To that end, it is helpful to remember that “[t]he
United States Housing Act is a program of ‘cooperative
federalism.’” (James v. New York City Housing
Authority (S.D.N.Y. 1985) 622 F.Supp. 1356, 1359; see
42 U.S.C. § 1437; see also Hodel v. Virginia Surface
Mining & Recl. Assn. (1981) 452 U.S. 264, 289.) “HUD’s
delegation of eligibility requirements to local public
housing authorities is intended to effectuate the
underlying policy of the United States Housing Act by
promoting efficient management of the programs . . . .”
(James v. New York City Housing Authority, at pp.
1361–1362.) With respect to the exclusion for homecare
payments specifically (24 C.F.R. § 5.609(c)(16)) (2020)),
HUD expressly left it to the states to define
“developmentally disabled,” which in part determines
a family’s eligibility for the income exclusion. (See ante,
at p. 12.)
Along these lines, HUD did not limit the income
exclusion based on whether a state allows a family to
use a family member or a third party to provide the
necessary care; the exclusion covers “[a]mounts paid by
a State agency to a family” with a developmentally
disabled member (24 C.F.R. § 5.609(c)(16) (2020)).
Indeed, acknowledging such a distinction would do
little to advance the complementary purposes of the

App. 18
federal and state statutes. Congress established
Section 8 with “the purpose of aiding low-income
families in obtaining a decent place to live.” (42 U.S.C
§ 1437f(a).) And our Legislature created IHSS with the
goal of providing “supportive services . . . to aged, blind,
or disabled persons . . . who are unable to perform the
services themselves and who cannot safely remain in
their homes or abodes of their own choosing unless
these services are provided.” (§ 12300, subd. (a).) Like
the purpose of the federal exclusion (see ante, at pp.
12–13), the IHSS program’s purpose is to enable
“‘disabled poor persons to avoid institutionalization by
remaining in their homes with proper supportive
services.’” (Basden v. Wagner, supra, 181 Cal.App.4th
at p. 939.) Nevertheless, MHA would have us read in
the words “from third parties” after the phrase “cost of
services” (24 C.F.R. § 5.609(c)(16) (2020)) thereby
making it correspondingly harder for certain families
to provide necessary in-home care. Given this
cooperative federalism regime, we ought to be reticent
to interpret the HUD regulation in a way that would
foreclose or hinder the objectives of the state IHSS
program.
The dissent overstates the import of the authority
it cites (see dis. opn., post, at pp. 1–2, 16–19). (See
Anthony v. Poteet Housing Authority (5th Cir. 2009)
306 Fed. Appx. 98, 101 (Anthony) [“One must incur
costs before they can be offset”]; Ali, supra, 931 N.W.2d
835.) In Anthony, an unpublished Fifth Circuit decision
that first addressed the issue, plaintiff Brenda Anthony
provided in-home care for her severely disabled son in
their Section 8 subsidized apartment. Unlike
California, the State of Texas does not pay families

App. 19
directly for in-home care; such care is provided by third
party intermediaries, who in turn employ in-home
attendants and pay them wages partially funded by the
state. Through her employment as a personal care
attendant with two private for-profit companies,
Anthony provided care not only for her son but also for
other clients under the terms of her employment.
In determining Anthony’s annual income for
purposes of calculating her subsidized rent, the PHA
refused to exclude Anthony’s wages under 24 Code of
Federal Regulations part 5.609(c)(16) (2020)). The Fifth
Circuit agreed with the PHA’s decision: “[T]he fact that
Anthony’s employment income coincides with state
funds that are set aside for her son’s care does not
make that income a form of reimbursement.” (Anthony,
supra, 306 Fed. Appx. at pp. 101–102.) The court
further rejected Anthony’s claim that the services she
provided her son were at a cost and were not free:
“[F]or Anthony, they are free. She has no out-of-pocket
expenses — ‘costs’ — that must be reimbursed or
‘offset’ by the state.” (Id. at p. 102.)
We are not persuaded by Anthony’s reasoning on
several grounds. Fundamentally, Texas’s program is
distinct from the IHSS scheme in that “all state-funded
in-home attendant-care services in Texas are provided
by private intermediaries, and Texas does not provide
any amounts directly to families to offset costs incurred
to keep a disabled family member at home.” (Anthony,
supra, 306 Fed. Appx. at p. 101.) Next, although
Anthony’s private employers paid her to provide
in-home care to her son “with money partially provided
by the state” (id. at p. 101), it is unclear what portion

App. 20
of her wages truly constituted “pass-through” state
funds. Her employers paid Anthony not just to care for
her disabled son, but also to care for other clients. (Id.
at p. 100.) Thus, Anthony’s compensation as an
in-home attendant was arguably indistinguishable
from wages a parent earns from outside employment,
and therefore properly not excluded from income under
24 Code of Federal Regulations part 5.609(c)(16)
(2020)). Finally, we do not agree with the Fifth
Circuit’s narrow interpretation of the exclusion as
limited to out-of-pocket expenses that a state directly
reimburses. (See Anthony, supra, 306 Fed. Appx. at pp.
101–102; see ante, at pp. 9–11.)
Nor are we persuaded by the Minnesota Supreme
Court’s recent decision in Ali, supra, 938 N.W.2d 835,
which relied in part on both Anthony and the Court of
Appeal opinion below to reach a similar conclusion.
(See Reilly v. Marin Housing Authority, supra, 23
Cal.App.5th 425.) Under Minnesota’s Consumer
Directed Community Support option for home and
community-based services, a family receives a budget
for specific services and equipment needed to keep a
developmentally disabled member at home. (Ali, supra,
938 N.W.2d at p. 837.) The plaintiff, whose autistic son
was eligible for the program, “chose to allocate a
portion of the budget to herself as a paid parent to
provide to her son some of the necessary services.”
(Ibid.) Following Anthony and Reilly, the Ali court
adopted a narrow view of “cost” to mean out-of-pocket
expenses, and concluded that the mother incurred no
actual monetary expenses to “offset.” (Id. at p. 840.)

App. 21
As with the Texas program, the Minnesota program
— which allowed the mother to “allocate her budget as
she saw fit to keep her son living at home” — is
structured differently from the IHSS program in a way
that makes Ali distinguishable. (Ali, supra, 938 N.W.2d
at p. 837.) Moreover, as with Anthony, we disagree with
the Ali court’s narrow interpretation of “cost” and
“offset.”
D. MHA’s policy arguments
Notwithstanding this reading of the HUD
regulation, MHA asserts that including a parent’s
IHSS compensation as income is necessary to achieve
a measure of parity between families in similar
circumstances. An expansive reading of the exclusion
(24 C.F.R. § 5.609(c)(16) (2020)), MHA argues, would
unfairly advantage families who provide in-home care
to a developmentally disabled member because their
compensation is not counted as income for purposes of
calculating their rent subsidy, whereas no comparable
income exclusion is available for a family with a
medically disabled member or for a family who hires a
third party provider.
In advancing this argument, MHA asserts the state
pays Reilly “wages” under the IHSS program.
Describing an employment relationship between Reilly
and the State of California, MHA relies in part on the
Court of Appeal’s reasoning that “IHSS payments
substitute in the family’s budget for the money the
parent would have earned outside the home.” Such
wages, MHA continues, should be considered part of
her annual income just like the outside income of a

App. 22
parent who instead hires an in-home provider. We
address these points in turn.
1. Disparity based on individuals’ different
disabilities
First, we reject MHA’s and the dissent’s assertion
that excluding Reilly’s IHSS payments from annual
income under 24 Code of Federal Regulations part
5.609(c)(16) (2020) would create an unfair disparity by
extending the exclusion to families with a
developmentally disabled member but not to families
with a medically disabled member. To the extent there
is any disparity, it is inherent in the federal regulation
itself, which specifically limits the exclusion to
payments made to families caring for a
“developmentally disabled family member.” (24 C.F.R.
§ 5.609(c)(16) (2020).) Put another way, even assuming
MHA’s position is correct that the exclusion is limited
to payments made to third party providers, it would
still treat developmental disabilities more favorably
than physical disabilities because whatever its scope,
the exclusion by its terms applies only to “[a]mounts
paid by a State agency to a family with a member who
has a developmental disability.” (Ibid., italics added.)
The regulation, moreover, does not require that an
individual meet a particular definition of
“developmentally disabled” for the income exclusion to
apply. As previously discussed (see ante, at p. 15), HUD
has not defined “developmental disability” in the
regulation, but instead left it up to states to determine
its meaning. Specifically, if a state program authorizes
a family to receive in-home care for a family member,
in HUD’s view that family member “meets the criteria

App. 23
of the definition” of developmentally disabled, and the
PHA “should consider the family eligible for the
exclusion.” (61 Fed.Reg. 54492, 54497 (Oct. 18, 1996),
italics added.) This expansive view in favor of applying
the exclusion is consistent with HUD’s expressed
concern that families of developmentally disabled
members in particular would receive unfair treatment
if this income exclusion were not made available to
them. HUD added the relevant exclusion for families
with a developmentally disabled member “[s]ince
families that strive to avoid institutionalization should
be encouraged, and not punished.” (60 Fed.Reg. 17388,
17389 (Apr. 5, 1995), italics added.)
The dissent, however, asserts that precluding Reilly
from utilizing this income exclusion would not amount
to punishment because no other group, besides foster
parents, enjoys the benefit of the income exclusion. (See
dis. opn., post, at p. 34, fn. 18.) This critically
misapprehends the nature of the penalty involved. The
punishment here is not merely withholding a benefit to
a family that is not otherwise given to similarly
situated families; in other words, the dilemma a family
faces is not choosing between enjoying or forgoing a
“preferential benefit,” as the dissent seems to suggest.
(Dis. opn., post, at p. 23.) Rather, if a family cannot
utilize the income exclusion to exclude compensation
for a parent’s in-home care, this may cause the family
to lose its Section 8 housing altogether because it is
unable to pay an increased portion of rent. Without
such housing, a family may face having to
institutionalize a developmentally disabled member, a
result the exclusion seeks to prevent in the first place.

App. 24
Further, despite no expressed preference for family
providers per se, “[r]ecipients needing 24-hour
protective supervision — and other services — are
more likely to receive better continuous care from
relatives living with them whose care is more than
contractual.” (Miller v. Woods, supra, 148 Cal.App.3d
at p. 870.) This continuity of care is particularly salient
here because of the nature of need-based tasks under
the IHSS program. Because an IHSS recipient may
only receive specific services based on an assessed need
— i.e., where “[p]erformance of the service by the
recipient would constitute such a threat to his/her
health/safety that he/she would be unable to remain in
his/her own home” (MPP, § 30.761.14) — not all time
that a provider spends with a recipient would be
compensable. (See § 12300, subd. (a); MPP,
§ 30.761.12.) Many tasks are discrete and not clustered
together throughout the day (such as feeding, dressing,
bowel and bladder care), and a provider may not be
compensated for time spent waiting in between those
tasks. It would no doubt prove challenging to find many
providers — other than family members — willing to
work that intermittently during the day.
Family members may also make particularly good
providers because IHSS services “involve a most
intimate and personal aspect of an individual’s life”
and family providers often “insure the least intrusion
upon the recipient’s privacy.” (Miller v. Woods, supra,
148 Cal.App.3d at p. 878; see § 12304.1 [“preference
shall be given to any qualified individual provider who
is chosen by any recipient”].) Also recognizing that
family-provided care is often the best type of care for
individuals with disabilities, Congress has included it

App. 25
as one of the “goals of the Nation” to provide families of
children with disabilities the services necessary to
“enable families of children with disabilities to nurture
and enjoy their children at home”; and “support family
caregivers of adults with disabilities.” (42 U.S.C.
§ 15091(a)(6)(B), (D) [congressional findings of Families
of Children with Disabilities Support Act of 2000]; id.,
§ 15091(a)(1) [“It is in the best interest of our Nation to
preserve, strengthen, and maintain the family”].)
Congress further emphasized the important cost
savings when family members are themselves
providers for their disabled children: “Families of
children with disabilities provide support, care, and
training to their children that can save States millions
of dollars. Without the efforts of family caregivers,
many persons with disabilities would receive care
through State-supported out-of-home placements.” (Id.,
§ 15091(a)(2); see 60 Fed.Reg. 17388, 17389 (Apr. 5,
1995).) These expressed goals fully align with HUD’s
objective to have developmentally disabled individuals
avoid institutionalization and instead live with their
families at home.3
This leads us to the inescapable conclusion that
parents who keep their disabled child at home instead
of in an institution — while also providing care as their
child’s IHSS provider — are different from other

3

Contrary to the dissent’s suggestion, nothing in our opinion
should be construed as implying that third party caregivers as a
whole will provide “substandard” care compared to family
members. (Dis. opn., post, at p. 31.) We merely confirm what
Congress has expressly recognized about the benefits of having
family caregivers.

App. 26
caregivers. That difference, however, cuts in favor of
allowing a parent’s IHSS compensation under the
exclusion. Unlike third party caregivers whose job it is
to take care of someone on an hourly basis, for these
parent providers, caring for their child “is not a day job;
it is their life.” (In re Hite (Bankr. W.D.Va. 2016) 557
B.R. 451, 458 [holding parents’ in-home care payments
excluded from monthly income and consequently not
deemed disposable income subject to creditors].) If
in-home care payments are not excluded from her
income, the benefits Reilly receives — the in-home care
for her disabled daughter K.R. and the Section 8
housing assistance — would be at cross-purposes. A
family should not be forced to make an impossible
choice between these two critical benefits. We perceive
no plausible reason why Reilly should not realize the
full benefit of what each program has to offer her
family.4
2. IHSS payments as wages
Next, we reject MHA’s underlying assumption that
a parent provider’s compensation under the IHSS
program seeks to replicate the wages and hours of a
parent who is employed outside the home. A parent’s
employment is relevant only to the extent it relates to
the parent’s suitability or availability to provide IHSS
services to a child. (MPP, § 30-763.451; Dept. AllCounty Letter No. 19-02 (January 9, 2019) (All-County

4

This conclusion focuses on Reilly’s general entitlement to benefits
under the Section 8 voucher and IHSS programs, and does not
consider any other basis for terminating these benefits such as the
failure to comply with any program requirements.

App. 27
Letter 19-02).) As section 12300, subdivision (e)
explains, the predicate for a paid parent provider is
that “no other suitable provider is available.” (§ 12300,
subd. (e); see MPP, § 30-763.451.) In providing the
necessary in-home care to a disabled child, a parent
forgoes any outside employment — not to displace
otherwise competent professional caregivers — but to
prevent a third party caregiver’s “inappropriate
placement or inadequate care” for their child. (§ 12300,
subd. (e).)
For instance, in its 2019 All-County Letter 19-02,
the Department clarified the paid parent provider
requirements: “The paid parent IHSS provider
requirements, set forth in MPP Section 30-763.451, do
not require or imply that a parent must have
marketable job skills or a work history to be their
child’s paid IHSS provider, as long as it is the recipient
child’s needs which prevent the parent from
maintaining or obtaining full-time employment.”
(All-County Letter 19-02, supra, at p. 4, italics added.)
Likewise, parents who retire or are laid off may also
serve as their child’s provider only if their retirement
or layoff is due to the child’s need for IHSS services.
(Id. at p. 6.) In short, “if a parent is not employed
full-time for a reason other than the recipient child’s
IHSS needs . . . that parent would not qualify as a paid
parent IHSS provider.” (Id. at p. 4.)
Second, even assuming Reilly’s IHSS compensation
represents her wages, this does not mean that
providing in-home care to her child is “an employment
for all purposes.” (Basden v. Wagner, supra, 181
Cal.App.4th at p. 940.) In Basden v. Wagner, the Court

App. 28
of Appeal recognized certain duties — such as the state
being responsible for the provider’s unemployment
compensation, workers’ compensation, federal and
state income tax and the like — that would suggest
providing IHSS full-time could be considered an
employment. The court, however, pointed out that “the
Legislature defined IHSS providers as employees for
limited circumstances, but undisputedly not for all
circumstances. More significantly, nothing in the
statutes even remotely suggests the Legislature
defined the provision of in-home, full-time, IHSS
funded care by a parent to a child as full-time
employment . . . .” (Ibid., italics omitted.) The question
here is whether a parent’s compensation for providing
in-home care is “specifically excluded” from the
definition of annual income for purposes of the HUD
regulation. (24 C.F.R. § 5.609(a)(3), (c)(16) (2020).) As
explained above, we conclude that IHSS compensation
to a parent provider is excluded from income. (See ante,
at pp. 14–15.)
Nevertheless, the dissent maintains that “[u]nlike
funds that reimburse a family’s expenditures, funds
provided by the state to compensate for the family’s
caregiving activities are available to meet the family’s
daily needs. That is their purpose.” (Dis. opn., post, at
p. 25, italics added.) This characterization gravely
misconstrues the nature and scope of IHSS services.
Under the IHSS program, the main focus is on
assessing the disabled individual’s “service needs and
authorizing service hours to meet those needs.”
(§ 12301.2, subd. (a)(1).) A caregiver will be
compensated only for those authorized service hours

App. 29
and nothing more. As previously explained (see ante, at
p. 21), because many tasks are discrete and completed
throughout the day, a provider might not be
compensated for time spent waiting in between those
tasks. Contrary to the dissent’s suggestion, excluding
a parent’s IHSS compensation from income would not
artificially reduce a family’s income and thereby
increase any resulting rent subsidy. At best, a parent’s
IHSS compensation will offset a portion of the costs of
keeping a developmentally disabled family member at
home, and would not go far in meeting the family’s
daily needs.
The dissent’s related assertion — i.e., family
providers “are effectively selling their labor to the
state, and the resulting income is indistinguishable, in
its impact on the family’s standard of living, from
money earned working outside the home” (dis. opn.,
post, at p. 25) — is likewise long on conclusion but
short on facts. (See ibid. [“to receive funds from IHSS
a parent must accept their disabled child’s care as, in
effect, their job”].) In the case of Reilly’s daughter, K.R.,
for example, she required protective supervision that is
“only available” if “a need exists for twenty-four-hoursa-day of supervision in order for the recipient to remain
at home safely.” (MPP, § 30-757.173(a).) A person
needing 24-hour supervision would require a provider’s
services for 720 hours in a 30-day month. However, an
IHSS provider is limited to a statutory cap of 283 hours
of compensation. (§§ 12303.4, 14132.95, subd. (g).) The
discrepancy between a parent provider’s actual hours
of service and compensation belies any assertion that
IHSS payments, at least with respect to protective
supervision, are intended to represent wages the

App. 30
parent would have earned outside the home, where
compensation would be based on every hour worked.
Finally, we find it significant that the IRS also
treats in-home care payments — whether the provider
is related or unrelated to the disabled individual — as
excludable from a provider’s income under Internal
Revenue Code section 131. (26 U.S.C. § 131; see Rev.
Proc. 2014-7, 2014-4 I.R.B. 445.) In 2014, the IRS
explained that Medicaid waiver payments to states,
which are used to fund IHSS payments through the
state Medi-Cal program (see ante, at pp. 5–6 & fn. 2),
should be excluded from a provider’s gross income.
(Rev. Proc. 2014-7, 2014-4 I.R.B. 445.) It equated these
payments to foster care payments, which are
considered “difficulty of care” payments excludable
from a provider’s income under Internal Revenue Code
section 131. (26 U.S.C. § 131(a) [“Gross income shall
not include amounts received by a foster care provider
. . . as qualified foster care payments”].) “The programs
share the objective of enabling individuals who
otherwise would be institutionalized to live in a family
home setting rather than in an institution, and both
difficulty of care payments and Medicaid waiver
payments compensate for the additional care required.”
(Rev. Proc. 2014-7, 2014-4 I.R.B. 445 [these foster
parents “‘are saving the taxpayers’ money by
preventing institutionalization of these children’”].) As
relevant here, the IRS makes no distinction between
care provided by a parent or by a third party — the
exclusion for Medicaid waiver payments “will apply
whether the care provider is related or unrelated to the
eligible individual.” (Ibid., italics added.)

App. 31
Seeking to downplay any impact an IRS
interpretation has on a HUD regulation, MHA notes
that HUD has indicated that the “tax rules are
different from the HUD program rules.” (HUD, HUD
Handbook 4350.3: Occupancy Requirements of
Subsidized Multifamily Housing Programs (Nov. 2013)
¶ 5-1.) Be that as it may, we do not conclude that the
IRS’s interpretation is dispositive or compels the
outcome in this case. We do, however, acknowledge
that it provides persuasive insight, one that is
consistent with the rulemaking record of the HUD
regulation (24 C.F.R. § 5.609(c)(16) (2020)). (See ante,
at pp. 11–13)
For example, though payments to foster parents and
in-home care payments are both considered “difficulty
of care” payments excludable from a provider’s taxable
income, these payments would receive unequal
treatment under MHA’s interpretation of the
regulation. Under 24 Code of Federal Regulations part
5.609(c)(2) (2020), “[p]ayments received for the care of
foster children or foster adults (usually persons with
disabilities, unrelated to the tenant family, who are
unable to live alone)” are excluded from income for
purposes of Section 8 housing. If a family takes into
their home an unrelated disabled adult who is unable
to live alone, and receives payment from the State for
providing care to that adult, such payments are
excluded from the family’s income. However, if that
same family receives payment for providing the same
care but to a developmentally disabled family member,
those payments would not be excluded from income. To
ascribe this interpretation to HUD, which would
impose a financial penalty on a family simply because

App. 32
the care is given to a disabled family member rather
than a disabled stranger, would not only be
inconsistent with the IRS’s treatment of both
payments, there is no evidence in the regulation’s
rulemaking record that HUD intended different
treatment.
E. HUD’s position
At our request, HUD filed an amicus brief in this
matter. We first note that at oral argument HUD’s
counsel indicated that the agency did not request we
give deference to its interpretation of the regulation
because it believed the plain language controlled. (See
Kisor v. Wilkie (2019) 588 U.S. ___ [139 S. Ct. 2400,
2415] [“If uncertainty does not exist, there is no
plausible reason for deference. The regulation then just
means what it means — and the court must give it
effect”].) Urging us to affirm the Court of Appeal’s
judgment, HUD opines that the IHSS payments Reilly
receives must be treated as income under the
regulation because that “compensation substitutes for
income Reilly would otherwise earn for working outside
the home.” HUD essentially echoes the reasoning of the
Court of Appeal below.
Though deference is generally accorded an agency’s
interpretation of its own regulation in the face of
ambiguity (see Auer v. Robbins (1997) 519 U.S. 452;
Skidmore v. Swift & Co. (1994) 323 U.S. 134, 140), we
conclude that such deference is not compelled here.
(See United States v. Mead Corp. (2001) 533 U.S. 218,
228 [“[t]he fair measure of deference to an agency
administering its own statute has been understood to
vary with circumstances”].) Courts should defer to an

App. 33
agency’s interpretation unless an “‘alternative reading
is compelled by the regulation’s plain language or by
other indications of the [agency’s] intent at the time of
the regulation’s promulgation.’” (Thomas Jefferson
Univ. v. Shalala, supra, 512 U.S. at p. 512, italics
added.)
As explained above (see ante, at pp. 12–13), we
conclude that HUD’s clearly expressed intent at the
time it added the exclusion for homecare payments (24
C.F.R. § 5.609(c)(16) (2020)) was to encourage families
to provide in-home care to, and avoid
institutionalization of, developmentally disabled family
members. This contemporaneous intent is fully realized
only when in-home payments for services needed to
keep the developmentally disabled member at home —
are excluded from income for purposes of the Section 8
program, i.e., whether those payments are ultimately
made to a family member or to a third party provider.
This interpretation is consistent with exclusion’s
language, which places no restrictions on who the
provider of services can be. (24 C.F.R. § 5.609(c)(16)
(2020).)
Contrary to MHA’s suggestion, we do not perceive
any intent by HUD to treat families with a
developmentally disabled member and families with a
medically disabled member the same, or to consider a
parent’s outside income the same as a parent’s IHSS
compensation. We will not pursue parity for parity’s
sake, especially if such pursuit runs counter to the
language and purpose of the exclusion. Including a
parent’s in-home care payments as income to
determine a family’s Section 8 eligibility will have the

App. 34
perverse effect of making it harder for a family to
maintain a home in which to care for the child.
In the end, we refuse to adopt a crabbed
interpretation that does little to advance the tandem
goals of offering affordable housing to low income
families and of supporting families who themselves
provide in-home care for developmentally disabled
members. We cannot endorse a construction that yields
a result antithetical to our nation’s “goal of providing
families of children with disabilities with the support
they need to raise their children at home.” (42 U.S.C.
§ 15091(c).) We conclude a parent’s IHSS compensation
to provide care to keep a developmentally disabled
child at home is excluded from income under 24 Code
of Federal Regulations part 5.609(c)(16) (2020).
CONCLUSION
We reverse the Court of Appeal’s judgment and
remand the matter for further proceedings consistent
with this opinion.
CHIN, J.
We Concur:
LIU, J.
CUÉLLAR, J.
GROBAN, J.

App. 35
Dissenting Opinion by Chief Justice Cantil-Sakauye
The federal Housing Choice Voucher program, 42
U.S.C. section 1437f (hereafter Section 8), provides
housing assistance to low-income families, with the
amount of the assistance determined by the family’s
annual income. Under 24 Code of Federal Regulations
part 5.609(c) (2020),1 certain funds are excluded from
the calculation of annual income. Among the funds
excluded from that calculation are state payments to a
family providing at-home care to a developmentally
disabled family member if those payments “offset the
cost of services and equipment needed to keep the
developmentally disabled family member at home.”
(§ 5.609(c)(16).) The majority adopts an expansive
interpretation of part 5.609(c)(16), holding that, in
addition to excluding the state’s reimbursement of
out-of-pocket expenses, the regulation also covers the
compensation paid to parents who are hired by the
state to provide full-time care to their developmentally
disabled children. Every other appellate court to
consider part 5.609(c)(16) — the United States Court of
Appeals for the Fifth Circuit, the Minnesota Supreme
Court, and our Court of Appeal — has adopted a
narrower construction, limiting the exclusion to those
state payments that reimburse a family’s expenditures.
In contrast, these courts have held that compensation
to parents for their labor in caring for a
developmentally disabled child, which constitutes

1

Hereafter part 5.609(c) — and, when referred to in a citation
parenthetical, § 5.609(c). (See California Style Manual (2000)
§ 2:44.)

App. 36
genuine income to the family, is outside the scope of the
exclusion.
The conclusion reached by these other appellate
courts is the most straightforward reading of the
relevant regulatory language, which is restricted to
payments made “to offset the cost of services and
equipment.” (§5.609(c)(16).) And this interpretation
fully serves my understanding of the purpose
underlying the regulation, which is to ensure that
families caring for a developmentally disabled family
member are not disadvantaged in their receipt of
Section 8 housing assistance by their acceptance of
state help in keeping the family member at home.
Significantly, the narrower interpretation is the one
urged on us by the United States Department of
Housing and Urban Development (HUD), the federal
agency that drafted the regulation.
The majority’s more expansive construction of the
regulation relies on a strained reading that disregards
the actual language, and it will have unfortunate and
selective public policy consequences. First, the
majority’s ruling will introduce unintended and
unwarranted inequities into the administration of
Section 8. Second, the majority’s misreading will
siphon scarce housing assistance from California’s
other low-income families, inevitably reducing the
number of families who will benefit from the Section 8
program. In light of the misguided, if well-intentioned,
nature of the majority’s analysis, I respectfully dissent.

App. 37
I. BACKGROUND
A. Plaintiff’s Circumstances
Plaintiff Kerrie Reilly and her adult daughter, K.R.,
live together in a three-bedroom apartment in Marin
County. Due to a severe developmental disability, K.R.
requires around-the-clock supervision. Under the
In-Home Supportive Services program (IHSS; Welf. &
Inst. Code, § 12300 et seq.), the state pays plaintiff to
provide full-time home care and supervision to her
daughter. Without such care, K.R. would likely be
placed in an institution. At the time of the trial court
proceedings, the family’s annual income exceeded
$52,000, comprised ofK.R.’s social security benefits of
$11,000 and more than $41,000 in IHSS compensation
to plaintiff.
Plaintiff is a long-time participant in Section 8. In
2004, plaintiff’s second daughter, R.R., moved from the
family’s apartment to attend college. For the next five
years, plaintiff falsely represented in annual, sworn
certifications to the Marin Housing Authority
(Authority), the agency responsible for administering
her Section 8 benefits, that R.R. continued to live with
her.2 After the Authority learned the truth, plaintiff
admitted that she made the misrepresentations
because she was concerned that she and K.R. would be
required to move from their three-bedroom apartment
if she disclosed R.R.’s move. Plaintiff’s false
2

The majority’s statement that plaintiff “did not inform” the
Authority of R.R.’s departure (maj. opn., ante, at p. 2) is a
charitable but misleading characterization of plaintiff’s repeated
and knowing falsehoods.

App. 38
representations also caused her to be granted, the
Authority concluded, a larger Section 8 housing
voucher than she would have received had the
Authority known the true circumstances. When the
Authority confronted plaintiff, she agreed to repay
more than $16,000 in excess subsidies under a payment
schedule. Unfortunately, plaintiff was often unable to
make the scheduled payments. The Authority’s
patience ran out in 2015, when it terminated her
participation in the Section 8 program.
As the Authority informed the trial court in
explaining its decision to terminate plaintiff, its
implementation of Section 8 is severely constrained by
limited funding. In 2015, more than 5,000 families in
Marin County eligible for Section 8 housing assistance
were on a waiting list because the Authority was
unable to help them. At the time, the Authority was
authorized to grant vouchers to only 2,153 families; in
practice, it provided rent vouchers only to 1,957
families due to insufficient funding. The Authority
decided to terminate plaintiff because, it explained,
although it “has been grappling with the possibility of
terminating hundreds of compliant families from the
Section 8 Program, [plaintiff] has made it a practice to
violate rules of the Section 8 Program and her
contractual obligations.” Contrary to majority’s claim
(maj. opn.,ante, at p. 2), the termination did not require
plaintiff’s eviction from her apartment, although she
would become responsible for paying the entire rent.
In this mandate action challenging her termination,
plaintiff argued that the Authority had improperly
included her IHSS payments when calculating her

App. 39
annual income under Section 8, causing the Authority
to understate the housing subsidy due her. The trial
court disagreed, sustaining the Authority’s demurrer
without leave to amend upon concluding that the IHSS
payments were properly included in plaintiff’s income
calculation. The Court of Appeal affirmed in a
published decision. (Reilly v. Marin Housing Authority
(2018) 23 Cal.App.5th 425, 439 (Reilly).) The Supreme
Court now reverses the Court of Appeal.
B. Governing Law
1. Section 8
The Section 8 voucher program “is funded by HUD
and administered by state and local public housing
authorities . . . in accordance with regulations
promulgated by HUD. When a rent payment exceeds
a specified percentage of a family’s monthly income, the
federal program pays the balance.” (Inclusive
Communities Project, Inc. v. Lincoln Property Co. (5th
Cir. 2019) 920 F.3d 890, 900.) As HUD characterizes
the program in an amicus curiae brief, “Section 8 is not
an entitlement program; Congress appropriates only a
fixed sum for vouchers . . . each year, and not every
otherwise qualified family receives a voucher.”3 Each
administering agency is assigned a maximum number

3

If the Authority’s experience is any guide, HUD’s concession that
“not every otherwise qualified family receives a voucher” is a gross
understatement. More than 7,000 families in Marin County are
eligible for assistance under Section 8, but fewer than 2,000 are
actually provided vouchers.

App. 40
of annual vouchers and has a fixed budget.4 Yet
Congress has underfunded the program in recent
years, requiring these agencies to operate at only 85
percent of their assigned budgets.5
Each subsidized family is required to contribute to
its rent payment an amount equal to “thirty percent of
the tenant family’s monthly ‘adjusted income’ or ten
percent of its monthly gross income, whichever is
greater.” (Hayes v. Harvey (3d Cir. 2018) 903 F.3d 32,
36, citing 42 U.S.C. § 1437f(o).) “Adjusted income” for
this purpose is a family’s “annual income,” minus
certain expenses and allowances. (24 C.F.R. § 5.611
(2020); DeCambre v. Brookline Housing Authority (1st
Cir. 2016) 826 F.3d 1, 9 (DeCambre).) The calculation
of annual income therefore determines the proportion
of its monthly rent that a family participating in
Section 8 must pay.
For purposes of Section 8, “annual income”
constitutes “all amounts, monetary or not” that “[g]o to,

4

See Congressional Research Service, An Overview of the Section
8 Housing Programs: Housing Choice Vouchers and Project-Based
Rental Assistance, No. RL32284 (Feb. 7, 2014). A copy of the report
can be found at <https://www.everycrsreport.com/reports/RL322
84.html#:~:text=The%20voucher%20program%20is%20funded,
an%20annual%20budget%20from% 20HUD.> (as of Aug. 28, 2020).
All Internet citations in this opinion are archived by year, docket
number, and case name at <http://www.courts.ca.gov/
38324.htm>.
5

Eligibility Team, How the Housing Choice (Section 8) Voucher
Program is Funded (Jan. 22, 2016) <https://eligibility.com/section8/how-the-housing-choice-section-8-voucher-program-is- funded#>
(as of Aug. 28, 2020).

App. 41
or on behalf of, the family head or spouse . . . or to any
other family member.” (24 C.F.R. § 5.609(a)(1), (3)
(2020); DeCambre, supra, 826 F.3d at p. 9.) Among
other things, this includes “[t]he full amount, before
any payroll deductions, of wages and salaries, . . . and
other compensation for personal services.” (24 C.F.R.
§ 5.609(b)(1) (2020).) Subpart (c) of part 5.609 lists 16
exclusions from annual income. In addition to the
exclusion on which plaintiff relies, part 5.609(c)(16),
which excludes certain payments to a family providing
at-home care to a developmentally disabled family
member, these include payments received “for the care
of foster children” (§ 5.609(c)(2)), payments “for, or in
reimbursement of, the cost” of medical expenses
(§ 5.609(c)(4)), students’ financial aid (§ 5.609(c)(6)),
certain nonrecurring payments (§ 5.609(c)(3), (9)), and
student earnings and adoption assistance payments “in
excess of $480” (§5.609(c)(11), (12)).
2. IHSS
The purpose of the IHSS program is “to avoid
institutionalization of incapacitated persons. It
provides supportive services to aged, blind, or disabled
persons who cannot perform the services themselves
and who cannot safely remain in their homes unless
the services are provided to them. The program
compensates persons who provide the services to a
qualifying incapacitated person.” (Basden v. Wagner
(2010) 181 Cal.App.4th 929, 931 (Basden).) IHSS is
administered by the state’s counties (Skidgel v.
California Unemployment Ins. Appeals Bd. (2018) 24
Cal.App.5th 574, 578–579), which either hire a
caregiver for the recipient or pay the recipient directly

App. 42
to cover the costs of a caregiver. (Basden, at p. 934;
Welf. & Inst. Code, §§ 12302, 12304, subd. (a).)
Counties are required to give preference to a care
provider selected by the recipient, and some IHSS care
recipients are entitled to select and hire their own
provider. (Welf. & Inst. Code, §§ 12303.4, subd. (b);
12304, subd. (a), 12304.1; Skidgel, supra, 24
Cal.App.5th at p. 579.)
The state may hire parents to care for their children
under IHSS, but only “when the [parent] leaves
full-time employment or is prevented from obtaining
full-time employment because no other suitable
provider is available.” (Welf. & Inst. Code, § 12300,
subd. (e); see generally, Basden, supra, 181 Cal.App.4th
at pp. 939–940.) Of the 535,000 IHSS care providers in
California, about 70 percent are a relative or spouse of
the recipient, and about one-quarter of those are a
parent. Slightly less than half of IHSS providers —
250,000 persons — are, like plaintiff, relatives of the
person for whom they provide care and live in the same
home.6
Plaintiff’s claim that her IHSS payments should be
excluded from the calculation of her Section 8 annual
income is premised on part 5.609(c)(16), which excludes
“[a]mounts paid by a State agency to a family with a
6

The State Department of Social Services reports a wide range of
monthly data regarding participation in the IHSS program. The
information cited in this paragraph is from a table of data for June
2020, maintained at IHSS Program Data <https://www.cdss.ca.g
ov/inforesources/ihss/program-data> (as of Aug. 28, 2020). The
cited data is available under a tab labeled “Provider Details,”
which does not appear to be accessible through a separate URL.

App. 43
member who has a developmental disability and is
living at home to offset the cost of services and
equipment needed to keep the developmentally
disabled family member at home.” The Authority and
HUD interpret the phrase “[a]mounts paid . . . to offset
the cost of services and equipment” to cover only
payments by the state to compensate for a family’s
actual expenditures on services or equipment.
(§ 5.609(c)(16.) Because plaintiff’s IHSS compensation
was not used to pay for the costs of services or
equipment purchased by the family to care for K.R., the
Authority explains, it did not exclude plaintiff’s IHSS
payments when calculating her annual income.
Plaintiff contends, however, and the majority holds,
that the phrase “[a]mounts paid . . . to offset the cost of
services and equipment” (ibid.) should be construed to
cover any payment made to a family by the state in
connection with the in-home care of a developmentally
disabled family member, regardless of whether the
payment offset an expenditure by the family or
compensated a family member hired by the state to
care for the disabled person.
II. DISCUSSION
A. The Language of Part 5.609(c)(16)
Precludes the Majority’s Interpretation
We review questions of statutory interpretation de
novo. (Christensen v. Lightbourne (2019) 7 Cal.5th 761,
771.) Under “our familiar principles of statutory
construction,” “‘[w]e start with the statute’s words,
which are the most reliable indicator of legislative
intent.’ [Citation.] ‘“We interpret relevant terms in
light of their ordinary meaning, while also taking

App. 44
account of any related provisions and the overall
structure of the statutory scheme to determine what
interpretation best advances the Legislature’s
underlying purpose.”’ [Citations.] ‘If we find the
statutory language ambiguous or subject to more than
one interpretation, we may look to extrinsic aids,
including legislative history or purpose to inform our
views.’” (In re A.N. (2020) 9 Cal.5th 343, 351–352
(A.N.).) We take the same approach when interpreting
administrative regulations. (Centinela Freeman
Emergency Medical Associates v. Health Net of
California, Inc. (2016) 1 Cal.5th 994, 1011.) Based on
the ordinary meaning of its language, we should
conclude that the part 5.609(c)(16) exclusion is limited
to state payments that compensate a family’s actual
expenditures for services and equipment to keep a
developmentally disabled family member in their
home.
As noted above, part 5.609(c)(16), excludes from a
Section 8 family’s annual income “[a]mounts paid by a
State agency to a family . . . to offset the cost of services
and equipment needed to keep the developmentally
disabled family member at home.” According to
Merriam-Webster, the verb “offset” means “to serve as
a counterbalance for : COMPENSATE.” (MerriamWebster Dict. Online (2020) <https://www.merria
m-webster.com/dictionary/offset> [as of Aug. 28,
2020];_see, e.g., Steinmeyer v. Warner Cons. Corp.
(1974) 42 Cal.App.3d 515, 518 [“An ‘offset’ may be
defined as a claim that serves to counterbalance or to
compensate for another claim”].) Part 5.609(c)(16)
therefore excludes payments by the state to a family
that are made to “counterbalance” the cost of services

App. 45
and equipment needed to keep the developmentally
disabled family member at home. Necessarily, this
language anticipates that an equivalent cost has been
or will be paid by the family for those services or
equipment, since there would be nothing to
counterbalance in the absence of such an expenditure.
If HUD, the agency that drafted part 5.609(c)(16),
had intended the regulation to bear the broader
meaning imposed by the majority, it could have used a
more inclusive phrase, such as amounts paid by the
state “for services and equipment,” instead of requiring
the excluded payments to “offset the cost” of services
and equipment. This is the approach taken by HUD in
drafting the only part 5.609(c) exclusion that
undoubtedly bears the breadth bestowed on subpart
(c)(16) by the majority. Part 5.609(c)(2) excludes
“[p]ayments received for the care of foster children or
foster adults (usually persons with disabilities,
unrelated to the tenant family, who are unable to live
alone),” leaving no uncertainty about its meaning.7
(Italics added.) By imposing a similar breadth on part

7

The parenthetical presumably explains the reason for the
breadth of the exclusion: To provide a benefit to low-income
families that care for unrelated persons who are in distressed
circumstances. The majority contends that interpreting subpart
(c)(2) differently from subpart (c)(16) “would be unreasonable”
because both families are providing “the same care.” (Maj. opn.,
ante, at p. 28.) The different approaches, however, are readily
explained. HUD could reasonably have concluded that the familial
connection required by part 5.609(c)(16) makes it unnecessary to
bestow this type of benefit on families covered by that exclusion.
In any event, the distinctly different language in the two
exclusions suggests that they should be interpreted differently.

App. 46
5.609(c)(16), the majority’s reading renders pointless
the use of the term “offset” because its reading is not
restricted to the exclusion of payments that “offset the
cost” of services and equipment. It is an elementary
principle of statutory interpretation that “‘[a]n
interpretation that renders statutory language a
nullity is obviously to be avoided.’” (Tuolumne Jobs &
Small Business Alliance v. Superior Court (2014) 59
Cal.4th 1029, 1039.) The majority’s expansive approach
also defies the general interpretive principle that
exceptions to a statute are to be construed narrowly.
(Mathews v. Becerra (2019) 8 Cal.5th 756, 771;
Simpson Strong-Tie Co. v. Gore (2010) 49 Cal.4th 12,
22.)
HUD has confirmed this understanding in an
amicus curiae brief, arguing that it intended the
regulation to reach only state payments that reimburse
a family’s expenditures. As HUD reasons, this
narrower reading “accords with the basic policy
objectives of the regulation. [Citation.] As HUD has
explained, in promulgating [part] 5.609(c)(16), the
exclusion exists because ‘families that strive to avoid
institutionalization should be encouraged, and not
punished.’ [Citation.] The regulation pursues this goal
in part by ensuring that families that choose different
means of keeping the developmentally disabled family
member at home are treated evenhandedly.”8

8

Leaving aside debate about the precise degree of deference to be
accorded HUD’s interpretation under Yamaha Corp. of America v.
State Bd. of Equalization (1998) 19 Cal.4th 1, 7–8, the
administrative agency’s interpretation undoubtedly deserves
serious consideration. Although the majority does address HUD’s

App. 47
Plaintiff argues that the term “cost” could cover
more than a monetary expenditure. In ordinary
parlance, “cost,” admittedly, can refer not simply to the
price paid for something, but more broadly to “the
outlay or expenditure (as of effort or sacrifice) made to
achieve an object” or the “loss or penalty incurred
especially in gaining something.” (Merriam-Webster
Dict. Online (2020) <https://www.merriam-webster.co
m/dictionary/cost> [as of Aug. 28, 2020].) In this
connection, plaintiff invokes the economic concept of an
“opportunity cost,” that is, the opportunities foregone
when a person makes a particular economic choice.
Here, the argument goes, “cost” refers to the
employment opportunities that plaintiff has foregone in
order to provide care under IHSS. The payments
therefore “offset” the cost to plaintiff of not having
other employment. This is hardly the “ordinary
meaning” of the language HUD chose to use. (A.N.,
supra, 9 Cal.5th at p. 351.) We typically refer to a
payment for services as “compensation” or, more
simply, “payment” for the work performed. We do not
refer to compensation for providing a service as
“offsetting the cost” of the service provider’s own effort,
much less the service provider’s decision to take this
job, rather than a different hypothetical job.
The majority takes a different tack in justifying its
interpretation, suggesting that because much of the
IHSS compensation paid to plaintiff will ultimately be
spent on costs associated with supporting K.R. in the

views, its explanation for rejecting them amounts to little more
than a disagreement with HUD over which interpretation best
serves HUD’s goals. (Maj. opn., ante, at pp. 28–30.)

App. 48
family home, that compensation is paid to “offset the
cost of services and equipment needed to keep [K.R.] at
home.” (§ 5.609(c)(16); see Maj. opn., ante, at p. 10
[“Whether a family uses homecare payments to support
itself so that it may care for a developmentally disabled
member at home, or instead uses the funds to pay a
third party to provide care for some of the time, these
payments do no more than ‘offset’ the ‘cost’ of services
and equipment needed to avoid institutionalization”].)
This rationale fails for two independent reasons. First,
while it finds a role for the term “offset,” it disregards
other aspects of the regulatory language. Part
5.609(c)(16) excludes only state payments that offset
expenditures for “services and equipment.” As
rationalized above, the majority’s reading necessarily
stretches the exclusion to cover any cost related to
K.R.’s presence in the home, including food, clothing,
and rent. These are not normally viewed as “services
and equipment.”9 By restricting the exclusion to the
costs of “services and equipment,” HUD signaled its
intent to exclude only costs related to the family
member’s disability, rather than the ordinary, if
necessary, expenses of daily life. Second, the regulation
excludes “[a]mounts paid by a state agency . . . to offset
the costs of services and equipment.” (§ 5.609(c)(16).)
As discussed above, the IHSS compensation is paid by
the state to compensate plaintiff for her labor in caring
for her daughter. While it may be used by plaintiff to

9

Indeed, because the majority reads the regulation to exclude the
entirety of plaintiff’s IHSS compensation on this basis, it construes
“the costs of services and equipment” to cover the cost of anything
plaintiff chooses to spend her compensation on.

App. 49
cover the costs of supporting her daughter, it is not
paid by the state to offset those costs.
The restrictive view of part 5.609(c)(16) has been
adopted by all other appellate courts that have
considered the issue. The plaintiff in Anthony v. Poteet
Housing Authority (5th Cir.2009) 306 Fed. Appx. 98,
the first decision to address this issue, lived with her
developmentally disabled adult child. Under a
state-funded program in Texas, she was employed by a
private entity to care for the child and, like plaintiff,
contended that the income she earned in this role
should be excluded from her Section 8 income under
part 5.609(c)(16). The court was willing to accept that
her payments, despite being provided by a private
employer, constituted payments by the state. It
rejected her argument that the payments should be
excluded from the calculation of her Section 8 income
under part 5.609(c)(16), however, upon concluding that
the exclusion applies only to reimbursements for costs
paid for care by third-party providers. As the court
explained, “One must incur costs before they can be
offset.” (Anthony, at p. 101.)
The Court of Appeal below reached a similar
conclusion after a more extensive analysis. It declined
to equate “offset” with “reimburse,” but the distinction
it found between the two terms was quite narrow and
is inconsequential in these circumstances. As the court
explained, part 5.609(c)(16) “appears to reach money
paid to a family so that the family can go out and hire
services or purchase equipment necessary for the
developmentally disabled family member. Such
payments ‘offset the cost of services and equipment’

App. 50
that would otherwise fall on the family. But they are
not reimbursement for out-of-pocket expenses if the
family receives payment before, rather than after,
incurring the expense.”10 (Reilly, supra, 23 Cal.App.4th
at p. 434.) The appellate court below also rejected
plaintiff’s argument that the IHSS payments should be
excluded because “the services she provides are
necessary for her daughter to live at home, and the
IHSS payments offset the costs of those services.” (Id.
at p. 432.) The court rightly accepted plaintiff’s
contention that her services were necessary to keep
K.R. at home, but it found the language of the
regulation inconsistent with plaintiff’s argument that
it excludes any payment for necessary services. As the
court explained, part 5.609(c)(16) refers to payments
“‘to a family . . . to offset the cost of services . . . .’”
(Reilly, at p. 434.) “If a payment is to ‘offset the cost of
services,’ the payment must go to the same entity that
incurs the cost of those services. Otherwise the
payment does not counterbalance or compensate for the
cost of services. . . . This means that the costs these
payments offset must be costs that the family itself
incurs.” (Ibid.)
Most recently, the Minnesota Supreme Court
reached the same conclusion in In re Ali (Minn. 2020)
938 N.W.2d 835 (Ali). In that case the plaintiff lived at
home with her developmentally disabled son. Under a
Minnesota state program, she was provided with a

10

The majority contends that “‘offset’ as used here does not
necessarily reflect th[e] same meaning” as “reimburse” (maj. opn.,
ante, at p. 10), but it does not clearly articulate what the difference
might be.

App. 51
budget for the services and equipment needed to keep
him in the home, some of which she allocated to herself
as compensation for her services as a caregiver. (Id. at
p. 837.) In concluding that the sums allocated to
plaintiff were not excluded from her Section 8 income
under part 5.609(c)(16), the court held that the word
“cost” should be interpreted as “price.” (Ali, at p. 839.)
It rejected the argument that the word should be given
a broader definition for three independent reasons.
First, referring to the entirety of the phrase “to offset
the cost of services and equipment,” the court reasoned
that “[t]he ‘and’ between the words services and
equipment suggests that the same measurement is
used for each. Typically, the cost of equipment is
calculated in monetary terms — such as the cost to buy
or lease.” (Ibid.) Second, like the appellate court below,
Ali cited the use of the word “cost” elsewhere in part
5.609, where it clearly refers to “a monetary expense.”
(Ali, at p. 839.) Finally, the court noted that “when the
regulators wanted to exclude amounts paid to family
members for their own services, they knew how to do so
— and did so unambiguously.” (Ibid.) Ali cited in
support two other subparts of part 5.609(c), in both of
which the regulatory language, unlike part
5.609(c)(16), unambiguously excludes state payments
made to the Section 8 family.11 (Ali, at p. 839.)

11

In addition to addressing part 5.609(c)(2), discussed above,
which excludes payments to foster families, Ali cited part
5.609(c)(12), which excludes from annual income “[a]doption
assistance payments in excess of $480 per adopted child.” (Ali,
supra, 938 N.W.2d at p. 839.)

App. 52
B. Extrinsic Aids to Interpretation Weigh
Against the Majority’s Approach
I do not agree with the majority that the
interpretation it has imposed on the language of part
5.609(c)(16) is sufficiently reasonable to create a
statutory ambiguity, but there is no need to debate the
issue. The available extrinsic aids to interpretation also
weigh against the majority’s reading. Its interpretation
assigns an unfounded purpose to the part 5.609(c)(16)
exclusion that will seriously distort the intended
operation of the annual income calculation for families
receiving caregiving income under IHSS. In turn, this
distortion will not only introduce unintended inequities
among Section 8 families, but it is also likely to
materially reduce the funds available to support
housing subsidies for other low-income families in
California. These unfortunate consequences weigh
strongly against the majority’s ruling.
1. The rulemaking history does not support the
majority’s reading
The majority finds support for its interpretation in
commentary on part 5.609(c)(16) published by HUD
around the time of its adoption. (Maj. opn., ante, at pp.
11–16.) Reviewing the same materials, the Court of
Appeal found them “unhelpful in resolving the
interpretive issue before us,” and I agree. (Reilly,
supra, 23 Cal.App.5th at p. 436.) As quoted by the
majority (maj. opn., ante, at p. 12), the commentary
never expressly addresses the issue before us — the
distinction between state payments made to reimburse
a family’s expenditures for services and those made to
compensate the family’s own provision of services —

App. 53
and does little more than parrot the language of the
regulation. The commentary does use the term
“homecare payments,” but it characterizes those
payments in the language of the exclusion itself. That
is, “homecare payments,” as the term is used by HUD,
are payments made “to offset the cost of services and
equipment needed to keep a developmentally disabled
family member at home, rather than placing the family
member in an institution.” (60 Fed.Reg. 17388, 17389
(Apr. 5, 1995).) HUD’s use of the term is therefore of no
help in resolving the question before us.
The majority’s contrary conclusion is based on
circular reasoning. Beginning with its assumption that
“homecare payments” means any payment made by the
state in connection with the care in the home of a
developmentally disabled person, the majority
concludes that by joining that term with the regulatory
language HUD signaled its agreement with the
majority’s broad interpretation. The conclusion that
“homecare payments” refers to any payment by the
state, however, rather than only those intended to
offset family expenditures, is unsupported by anything
in the commentary. In fact, the commentary clearly
uses “homecare payments” merely as a synonym for the
type of payments that are excluded by part
5.609(c)(16). Its use therefore confirms the majority’s
interpretation only if one assumes that the regulation
should be interpreted in the manner adopted by the
majority. In reality, the HUD commentary simply does
not address the question before us.
The policy argument advanced by the majority in
connection with HUD’s commentary is, in essence, that

App. 54
because payments made by the state to compensate a
family for caregiving services may be critical in keeping
a developmentally disabled family member in the
home, they must be included within the part
5.609(c)(16) exclusion. The flaw in this logic, as the
Court of Appeal noted in rejecting the same argument
below (Reilly, supra, 23 Cal.App.4th at p. 434), is that
it ignores the language of the regulation. Merely
because these payments are important in keeping a
developmentally disabled family member in the home
does not alone mean that they “offset the costs of
service and equipment” necessary to that task. As
explained above, to reach the majority’s conclusion it is
necessary to read the phrase “offset the costs” as
synonymous with “for,” a different and broader term.
Because it is the regulation’s language that must guide
our interpretation, we are required to respect HUD’s
word choice.
2. The majority’s interpretation misunderstands
the limited function of the part 5.609(c)(16)
exclusion
The impetus underlying the majority’s
interpretation of part 5.609(c)(16) seems to be to
maximize the Section 8 subsidy for persons in
plaintiff’s situation, given the difficulties of their
circumstances. In other words, if some subsidy is good,
more is better. Because the purpose of the exclusion is
to help burdened, low income families, it is difficult to
argue with the sentiment. Yet our interpretation must
be guided not by our own view of proper public policy,
but by the views of Congress and HUD, the agency
tasked with administering the Section 8 program. In

App. 55
implementing the congressional plan, HUD is required
to balance a wide variety of pertinent policy and equity
considerations, not the least of which is the allocation
of very limited public resources among many needy
families. Its policy choice is reflected in the language of
part 5.609(c)(16), which limits the exclusion to
out-of-pocket expenses. As discussed below, HUD’s
choice is consistent with the foundational concerns of
Section 8. The majority’s more expansive view upsets
the balance struck by Section 8, will create unintended
inequities in its implementation, and will ultimately
lead to a diminution in the housing assistance available
to other low-income Californians.
The purpose of the part 5.609(c)(16) exclusion is to
ensure that the acceptance of state financial help by
families who keep a developmentally disabled family
member at home does not place the families at a
disadvantage in receiving Section 8 housing assistance;
they are to be “‘encouraged, and not punished.’” (Maj.
opn., ante, at p. 12 [quoting HUD explanation].) To
accomplish this, part 5.609(c)(16) excludes from the
families’ annual income funds provided by the state
that the family spends on services and equipment to
support at-home care of the disabled family member.
By excluding this type of payment, the regulation
ensures that the acceptance of state aid by families
maintaining a developmentally disabled family
member does not inflate their annual income and
result in a diminished Section 8 subsidy. Instead, the
family receives the same housing subsidy as other
Section 8 families having a similar disposable income.

App. 56
There is no indication in the language of the
regulation itself or the limited regulatory history that,
in adopting part 5.609(c)(16), HUD intended to go
further and provide affirmative advantages to families
with a developmentally disabled member at home.
HUD did not say such families should be preferentially
benefitted, and not punished. Yet such a preferential
benefit is the consequence of the majority’s
interpretation of part 5.609(c)(16), since it affords
families who are paid to provide at-home care of a
developmentally disabled family member substantially
greater Section 8 housing subsidies than to other
low-income families with the same family income.
Section 8 housing subsidies are determined by a
participating family’s income — that is, the funds
available to the family to pay for rent and other daily
needs.12 The part 5.609(c)(16) exclusion is necessary
because the regulations defining “annual income” for
purposes of Section 8 are very broad, including “all
amounts, monetary or not” that “[g]o to, or on behalf of,
the family head or spouse . . . or to any other family
member.” (24 C.F.R. § 5.609(a)(1) (2020).) Given this
comprehensive definition, any payments made by the
state to a family for the care of a developmentally
disabled family member are included in annual income
under part 5.609(a), even if the payments are not
available to the family to pay for rent and other daily

12

Literally, it is not the subsidy that is determined by a family’s
income. Rather, annual income determines the amount the family
is required to contribute to its rent payment. The subsidy is then
the difference between this contribution and the family’s actual
rent. For purposes of this analysis, the difference is immaterial.

App. 57
needs because they merely offset family expenditures
for at-home care. Properly understood, part 5.609(c)(16)
prevents a family’s annual income from being inflated
by payments covering such out-of-pocket expenses,
recognizing that those payments should not be treated
as income because they do not increase the resources
available to the family for daily expenses. In the
absence of the exclusion, the acceptance of such aid
would reduce the family’s Section 8 subsidy without
improving its standard of living — in the words of
HUD, such families would be”punished.”
This highlights the fundamental difference, for
purposes of Section 8, between IHSS funds that are
given to reimburse expenditures by a family and funds
that compensate a family for the care of the disabled
family member. Unlike funds that reimburse a family’s
expenditures, funds provided by the state to
compensate for the family’s caregiving activities are
available to meet the family’s daily needs. That is their
purpose. In accepting compensation for their caregiving
activities, IHSS participants are effectively selling
their labor to the state, and the resulting income is
indistinguishable, in its impact on the family’s
standard of living, from money earned working outside
the home. For that reason, HUD has determined that
this compensation is properly characterized as income
under Section 8.
This is particularly true of parents who are hired to
provide caregiving responsibilities under IHSS. As
noted above, the state precludes a parent’s acceptance
of full-time work outside the home if the parent is
receiving IHSS compensation; such funding is available

App. 58
to parents only if “the [parent] leaves full-time
employment or is prevented from obtaining full-time
employment because no other suitable provider is
available.” (Welf. & Inst. Code, § 12300, subd. (e).) In
other words, to receive funds from IHSS a parent must
accept their disabled child’s care as, in effect, their job.
Plaintiff is an example. So far as the appellate record
reveals, caring for her daughter is her full-time
activity, and IHSS compensation is her only income.
The majority argues that the acceptance of
compensation from IHSS is not “‘an employment for all
purposes.’” (Maj. opn., ante, at p. 24.) The issue here,
however, is not whether IHSS “employs” caregivers for
all purposes. As defined by part 5.609, “annual income”
includes any “compensation for personal services,” not
just income from formal employment. (24 C.F.R.
§ 5.609(b)(1) (2020).) The issue is therefore whether the
compensation received from IHSS by persons like
plaintiff should be treated the same as income received
by Section 8 participants from other types of
compensable labor. By limiting the exclusion of part
5.609(c)(16) to offsetting payments, HUD has declared
that it should. The majority may disagree with HUD’s
policy choice, but it is HUD’s choice, not that of the
majority, that must govern our interpretation.13

13

The majority also finds support in the exclusion of in-home care
payments from “income” under the Internal Revenue Code. (Maj.
opn., ante, at pp. 26–27.) Because Section 8 and the Internal
Revenue Code are quite different statutes with very different aims,
there is no reason why the exclusion of IHSS payments from
federal taxable income should weigh in favor of their exclusion
from “annual income” under Section 8.

App. 59
Excluding IHSS compensation from a Section 8
family’s annual income, as the majority requires,
artificially reduces the family’s income and,
consequently, increases the family’s housing subsidy
above the level justified by its actual income. The effect
can be substantial. Take, as an example, plaintiff. As
noted above, a Section 8 family is ordinarily required to
contribute 30 percent of its annual income toward rent.
The remainder of its rent is paid by the program.
Plaintiff’s family income in the latest year for which we
have information was more than $52,000, consisting
primarily of plaintiff’s $41,000 income from IHSS; the
remainder was $11,000 in disability payments to K.R.
If plaintiff’s IHSS compensation is included in her
annual income for purposes of Section 8, the family
would be expected to contribute $1,300 toward its
monthly rent. Here, the majority would exclude
plaintiff’s $41,000 in IHSS compensation from the
family’s annual income. Plaintiff’s family will therefore
be treated as though it had an annual income of
$11,000, although it was living on an actual income of
$52,000 per year. As a result, the family’s expected rent
contribution will be reduced to $275.14 The remaining
$1,005 of the family’s monthly rent payment, an annual
gap of more than $12,000, must be made up from the

14

This assumes the resulting subsidy does not exceed the
maximum permitted. Section 8 housing subsidies are capped by a
“payment standard,” which is determined by local rental
conditions. (See Nozzi v. Housing Authority (9th Cir. 2015) 806
F.3d 1178, 1184–1185; 24 C.F.R. § 982.503(b) (2020); 42 U.S.C.
§ 1437f(o)(2).) The appellate record does not contain sufficient
information from which we may determine whether plaintiff’s
subsidy, as re-jiggered by the majority, would be capped.

App. 60
Authority’s Section 8 funds. It is noteworthy that the
majority nowhere acknowledges, let alone attempts to
explain or justify, that its interpretation will treat a
family with an annual income exceeding $52,000, more
than three times the federal poverty level for a family
of two, as though it were living far below the poverty
line.15 Yet that is the clear and unavoidable import of
its decision.
Low-income families caring for a developmentally
disabled family member at home face daily challenges
unknown to the rest of us. Few would begrudge such
families a generous housing subsidy, above and beyond
that provided to other low-income families with a
similar income — if there was evidence that Congress
or HUD intended to provide them such assistance. But
as noted above, the part 5.609(c)(16) exclusion was
intended to ensure that families receiving aid from
IHSS are simply treated the same as, not better than,
other families — to ensure that they were not
punished, rather than to preferentially benefit them.
3. The majority’s interpretation will introduce
unintended inequities into Section 8
implementation and reduce the availability of
Section 8 housing assistance in California
As discussed above, the majority’s reading of the
part 5.609(c)(16) exclusion is contrary to its language
and achieves the result, unintended by HUD, of
15

The 2020 federal poverty level for a family of two is an annual
income of $17,240. (See U.S. Dept. Health & Human Services,
Poverty Guidelines (Jan. 2020) <https://aspe.hhs.gov/poverty-gu
idelines> [as of Aug. 28, 2020].)

App. 61
granting IHSS participants like plaintiff substantially
greater Section 8 subsidies than are justified by their
actual income. That alone, of course, would be
sufficient to reject the reading. But we should be
particularly wary of imposing a rule HUD did not
write, given the serious public policy consequences that
will follow.
As explained below, these consequences are of two
types. First, the interpretation adopted by the majority
will create inequities among families participating in
the IHSS and Section 8 programs. Families that are
paid through IHSS to care at home for a
developmentally disabled person will receive a far
larger housing subsidy than families of similar income
that (1) IHSS funds to hire a third party to care for a
developmentally disabled family member in their home
or (2) receive IHSS funds to care for a medically
disabled family member.
Second, and just as important, the majority’s
interpretation will reduce, by an unknown but
potentially sizable amount, the number of families that
can obtain Section 8 housing assistance in California.
The majority’s decision will not increase by a single
dollar the Section 8 funds reaching California. Yet it
will require the state’s counties to steer a significantly
larger portion of their Section 8 housing funds to
families that receive IHSS compensation for caring for
a disabled member in the home. These increased
subsidies can come from only one place: The funds
available to other low-income families who are, or
would have been, receiving housing assistance under

App. 62
Section 8. The majority’s expansive interpretation will
come at the cost of assistance to other families in need.
First the inequities. IHSS provides families with the
funds necessary to maintain a developmentally
disabled family member in their home. The Authority
or the family can use these funds to hire a third-party
caregiver or, alternatively, a member of the family for
the same role. Both approaches serve the purposes of
IHSS and the part 5.609(c)(16) exclusion by (1) keeping
the developmentally disabled family member out of an
institution and (2) ensuring that the family is not
disadvantaged in the receipt of Section 8 funds by
doing so. So far as appears, neither HUD nor IHSS
favors one option over the other; certainly there is no
language in either Section 8 or IHSS reflecting a
preference, as the majority acknowledges. (Maj. opn.,
ante, at p. 21 [“despite no expressed preference for
family providers per se”].) Yet under the majority’s
reading a family that provides its own compensated
care will receive a far larger Section 8 housing voucher
than the family that uses IHSS funds to hire a
nonfamily member to provide the same care, even if
both families have identical incomes. This occurs
because, under the majority’s interpretation, some or
all of the income of the first family, consisting of
compensation received from IHSS, is excluded from the
annual income, while the income of the second family,
earned outside the home, is fully included. Assuming
both families end up with similar disposable
income,the first family will receive a far larger subsidy
under Section 8 due to the exclusion of a significant
portion of its disposable income. (See Reilly, supra, 23
Cal.App.5th at pp. 437–438.) There is no indication in

App. 63
the language of part 5.609(c)(16) or the regulatory
history to suggest that HUD intended this result; in its
amicus curiae brief, HUD expressly disavows such an
intent.
The majority seeks to explain away this disparity by
claiming that persons needing 24-hour care “‘are more
likely to receive better continuous care from relatives
living with them whose care is more than contractual.’”
(Maj. opn., ante, at pp. 21, quoting Miller v. Woods
(1983) 148 Cal.App.3d 862, 870.) Neither Miller nor our
appellate record contains evidence to support the
proposition that third-party caregivers provide
substandard care, compared to family members.16 But
more to the point, the majority cites no evidence that
HUD believed this to be true or that it crafted part
5.609(c)(16) based on any assumptions about the
relative competence of family members versus
third-party caregivers.
Much of the majority’s policy justification for its
interpretation is a recognition of the importance and
difficulty of the work done by persons who care for a
developmentally disabled family member at home. And
I agree, there is no doubt that this work is difficult and
important. If preferentially benefitting families who
care for developmentally disabled members themselves,
rather than retain a third-party caregiver, were
16

The majority notes that IHSS does not pay for 24-hour care.
(Maj. opn., ante, at p. 26.) Although true, that is of no policy
consequence here. Families that hire a third-party to provide care
for a developmentally disabled family member in their home must
provide the same type of uncompensated off-hours care for the
dependent as families that receive IHSS compensation.

App. 64
actually a motive underlying part 5.609(c)(16),
however, one would expect some express indication
that HUD intended to favor family care over care by
third-party providers. As noted above, there is no such
indication. In fact, the regulation is entirely silent, and
therefore presumably neutral, on that issue.17
The majority’s interpretation will create a similar
inequity between families that receive IHSS
compensation to care for a developmentally disabled
family member and families that receive IHSS funds to
care for a medically disabled family member. (See
Reilly, supra, 23 Cal.App.5th at p. 438.) Like families
maintaining a developmentally disabled member in the
home, families that maintain a medically disabled
family member in the home can receive IHSS
reimbursement for expenditures necessary to keep that
person at home as well as compensation for caregiving
by a family member. The Section 8 exclusion covering
families with a medically disabled member, however,
allows the exclusion from annual income only of
“[a]mounts . . . that are specifically for, or in
reimbursement of, the cost of medical expenses . . . .”

17

The majority also claims that if IHSS compensation is not
excludable under part 5.609(c)(16), the two programs, IHSS and
Section 8, will be at “cross-purposes,” presumably because
accepting IHSS compensation will reduce a family’s Section 8
subsidy. (Maj. opn., ante, at p. 23.) Accepting IHSS compensation,
however, is no more at cross-purposes with Section 8 than is
employment generally, since all income reduces a family’s Section
8 subsidy to the same degree. In any event, there are no
cross-purposes. The supplement to a family’s income from
accepting IHSS compensation far exceeds any corresponding
decline in its Section 8 subsidy.

App. 65
(§ 5.609(c)(4).) Although families caring for a medically
disabled family member face challenges similar to
those of families caring for a developmentally disabled
family member, the enhanced Section 8 subsidy made
available by the majority’s interpretation of part
5.609(c)(16) is unavailable to families with a medically
disabled member. Such families will also receive a
materially reduced Section 8 subsidy compared to
families that benefit from the majority’s interpretation
of part 5.609(c)(16).
The majority responds that this disparity “is
inherent in the federal regulation itself” because part
5.609(c)(4) permits recovery only of payments to
third-party providers. (Maj. opn., ante, at p. 19.) The
argument misses the point. Part 5.609(c)(16) has a
materially wider scope than part 5.609(c)(4) only
because the majority has interpreted it that way. If
“offset the cost of services and equipment” is
interpreted to cover only the reimbursement of
out-of-pocket expenditures, the two exclusions have a
similar scope. It is not “the federal regulation itself,”
but the majority’s interpretation of it, that creates an
inequity. The majority otherwise fails to explain what
possible public policy supports giving families with a
developmentally disabled member far more
advantageous treatment under Section 8 than families
with a medically disabled family member.18

18

The majority’s claim that HUD believes that families with a
developmentally disabled member would “receive unfair
treatment” if they were not allowed to exclude income (maj. opn.,
ante, at p. 20) is based entirely on HUD’s comment that such
families should be “‘encouraged, and not punished’” (ibid., italics

App. 66
The second unfortunate policy consequence of the
majority’s interpretation of part 5.609(c)(16) is its
inevitable diminution of the funds available to other
low-income participants in the Section 8 program. In
an ideal world, the majority’s award of greater Section
8 housing subsidies to low-income families receiving
state compensation to care for disabled family members
at home would be financed by additional congressional
appropriations for the Section 8 program. In our real
world, it does not work that way. Already, Section 8
housing subsidies are available only to a relatively
small subset of all eligible families. The Authority, for
example, is authorized to serve less than one-third of
the families that qualify for its help. Yet even that does
not fully capture the inadequacy of the program.
Presumably because of congressional underfunding, the
Authority actually provides vouchers to only 1,957
families, rather than the 2,153 it is authorized to help.
The majority’s generosity toward plaintiff and
similar IHSS participants does not come without cost,
and that cost will likely be borne by other low-income
families in California. The funding available to the
Authority will not be increased by $12,000 per year
merely because the majority has decreed that plaintiff
must receive an additional annual subsidy of $12,000.
omitted). Because no other class of Section 8 participants, besides
foster parents, is able to exclude such income, restricting the
exclusion to reimbursement of expenditures hardly constitutes
punishment. The majority argues that such families will be
punished if their income is not excluded because they might not
qualify for Section 8 subsidy. (Ibid.) Again, the same is true of all
other families who have too much income to qualify for Section 8;
it is not a punishment.

App. 67
Instead, given the fixed and inadequate budgets
available under Section 8, it is likely that every
additional dollar of subsidy provided to families with a
developmentally disabled member at home will come
directly from the funds available to subsidize the
housing of other low-income families that are, or could
have been, served by the Authority. By skewing the
allocation of Section 8 housing subsidies to families
receiving IHSS compensation, contrary to HUD’s
express intent, the majority’s misinterpretation of the
regulation will likely lead to a reduction in the housing
subsidies available to other low-income families in
California, and these will likely be reduced in an
amount equal to the enhanced subsidies given by the
majority to IHSS participants.19
If the language of part 5.609(c)(16) required this
result, we would be duty-bound to implement it. In
fact, the result is eminently avoidable. To bring it
about, the majority stretches the language of the
regulation and fails to account for the serious public
policy implications weighing against its decision.
Further, the dubious end result is to require the

19

We lack the evidence necessary to estimate the financial impact
of the majority’s interpretation, but the limited information
available suggests that it could be substantial. According to the
state data cited above (see ante, fn. 6), there are currently 250,000
“live-in relative providers” caring for a disabled family member
under IHSS. If just a tiny proportion of those live-in relatives care
for a developmentally disabled person, participate in the Section
8 program, and receive IHSS compensation similar to that of
plaintiff, the majority’s ruling will divert millions of dollars in
Section 8 housing subsidies from other low income families
state-wide.

App. 68
Authority to treat a family with an income of more
than $50,000 as though it were living on $11,000. In
the process, the majority will divert the Authority’s
all-too-scarce low-income housing assistance away from
other needy families. Every other court to consider the
issue has avoided this result, and this court should as
well.
CANTIL-SAKAUYE, C.J.
We Concur:
CORRIGAN, J.
KRUGER, J.

App. 69

APPENDIX B
Certified for publication 5/15/18
(order attached)
IN THE COURT OF APPEAL OF THE STATE
OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION TWO
A149918
(Marin County
Super. Ct. No. CIV 1503896)
[Filed: April 25, 2018]
__________________________________________
KERRIE REILLY,
)
)
Plaintiff and Appellant,
)
)
v.
)
)
MARIN HOUSING AUTHORITY,
)
)
Defendant and Respondent. )
__________________________________________)
Kerrie Reilly lives with her severely disabled adult
daughter in housing subsidized by the Marin Housing
Authority (MHA). The family participates in the
Housing Choice Voucher program, commonly known as
Section 8, which MHA administers according to the

App. 70
rules and regulations of the United States Department
of Housing and Urban Development (HUD). As a
Section 8 participant, Kerrie Reilly receives a monthly
rent subsidy, or “housing assistance payment,” the size
of which varies depending on her income.
The Reillys also participate in a state social services
program designed to help incapacitated persons avoid
institutionalization. The In-Home Supportive Services
(IHSS) program compensates those who provide care
for aged, blind, or disabled individuals incapable of
caring for themselves. (Norasingh v. Lightbourne
(2014) 229 Cal.App.4th 740, 744 (Norasingh).) Reilly’s
daughter suffers from a severe developmental
disability, such that she requires constant supervision,
and IHSS pays Reilly for providing her daughter with
care-giving services. The question this case presents is
whether the money Reilly receives from IHSS is
“income” within the meaning of HUD regulations, such
that MHA should include it in calculating the size of
Reilly’s housing assistance payment. We hold that it is,
and affirm the trial court in sustaining MHA’s
demurrer on this basis.
FACTUAL AND PROCEDURAL BACKGROUND
According to the verified petition that is the
operative pleading in this case, Reilly and two
daughters moved into a three-bedroom apartment in
Novato in 1998 and began receiving Section 8 housing
assistance payments. In 2004 one daughter moved out,
but Reilly failed to inform MHA of her departure. Five
years later, when Reilly told MHA that this daughter
no longer lived with her, MHA informed Reilly that her
failure to report the departure earlier was a violation

App. 71
of program rules and that she could stay in the
apartment only if she paid damages to MHA in the
amount of $16,011. Reilly and MHA memorialized a
settlement that called for Reilly to make monthly
payments, initially of $486, toward that sum. Because
Reilly was unable to afford these payments, the parties
revised the plan several times, eventually reducing
Reilly’s obligation to $150 per month. Still, Reilly
missed multiple payments.
By letter dated April 7, 2015, Reilly requested that
MHA recalculate her rent and exclude her income from
IHSS. MHA did not respond to that request, but soon
thereafter served Reilly with notice of a proposed
termination of her Section 8 voucher. A hearing officer
determined that this first proposed termination was
defective, but on July 31, 2015, MHA issued a second
termination notice, this time alleging that Reilly failed
to make multiple payments under the repayment plan.
At an informal hearing on August 25, 2015, Reilly
argued that MHA had improperly included her IHSS
payments as income and that, excluding these
payments, there was no lawful basis for MHA to have
demanded $16,000 from her.
On September 8, 2015, the hearing officer issued a
short, written decision upholding MHA’s decision to
terminate Reilly’s housing voucher. The hearing officer
made the following factual findings: Reilly failed to
promptly notify MHA when one daughter moved out of
the subsidized apartment, then entered into a
repayment agreement in 2009; Reilly breached that
agreement in 2010, and at a hearing following the
breach was warned that any future failure to make

App. 72
payments would result in the termination of her
housing assistance; Reilly breached the agreement
again in 2012, and in 2014 and 2015 when she missed
payments for 16 months. The hearing officer concluded
that Reilly’s failure to pay the amounts required under
the agreement was grounds for terminating assistance
under a HUD regulation (see 24 C.F.R. § 982.552(c)),
and under an MHA policy requiring termination after
three missed payments in a 12-month period. The
hearing officer did not address the issue of whether
IHSS payments were properly counted as income,
observing only that Reilly did not dispute her
non-payment of the debt but instead presented a case
“based on factors not related to the actual cause of
termination.”
On October 26, 2015, Reilly filed in the Marin
Superior Court a verified petition for writ of mandate
and, on July 20, 2016, an amended verified petition
(hereafter petition). The petition alleges two related
causes of action, both premised on the theory that
counting IHSS payments as income violates the
governing HUD regulation, 24 Code of Federal
Regulations part 5.609(c)(16) (hereafter section
5.609(c)(16)). Reilly’s first cause of action seeks an
administrative writ, specifically an order requiring
MHA to terminate Reilly’s repayment plan and
reinstate her Section 8 voucher. (See Code Civ. Proc.,
§ 1094.5.) The second cause of action seeks a writ of
mandate directing MHA to terminate the repayment
plan and exclude Reilly’s IHSS payments in calculating
income going forward. (See Code Civ. Proc., § 1085.)
Both causes of action include a request for attorney’s

App. 73
fees and costs, asserting the action will benefit the
public. (See Code Civ. Proc., § 1021.5.)
MHA demurred to the petition, and the trial court
sustained the demurrer after a hearing on November 4,
2016. The trial court concluded that Reilly’s
interpretation of section 5.609(c)(16) was “wrong as a
matter of law.” The HUD regulation broadly defines
income, subject to exceptions including an exception for
payments from a state agency “to offset the cost of
services and equipment needed to keep [a]
developmentally disabled family member at home.”
(§ 5.609(c)(16).) The trial court concluded that this
exception did not apply, reasoning that Reilly “‘has not
incurred out-of-pocket expenses that are being ‘offset’
by the IHSS payment.’” Instead, “[s]he is being paid for
her services.” Thus, Reilly’s IHSS payments count as
income. In reaching this conclusion, the trial court
relied on a federal case involving the earnings of a
Texas mother whose son was the beneficiary of a
somewhat similar state program. (See Anthony v.
Poteet Housing Authority (5th Cir. 2009) 306 Fed.
Appx. 98 (Anthony).)
Given the trial court’s reading of the HUD
regulation, the court concluded that no amendment to
Reilly’s petition would cure the defect the court had
identified, so it sustained the demurrer without leave
to amend and dismissed Reilly’s petition with
prejudice. This appeal timely followed. While the case
is pending this court ordered, as did the trial court
before us, a stay in the enforcement of the
administrative order terminating Reilly’s Section 8
benefits.

App. 74
DISCUSSION
We review de novo the trial court’s order sustaining
MHA’s demurrer. (Williams v. Housing Authority of
Los Angeles (2004) 121 Cal.App.4th 708, 718; Coopers
& Lybrand v. Superior Court (1989) 212 Cal.App.3d
524, 529.) “[G]iving the pleading the benefit of all facts
properly alleged” or judicially noticed, “and all
reasonable inferences drawn therefrom,” we must
determine “whether the pleading has stated a cause of
action.” (Busse v. United PanAm Financial Corp. (2014)
222 Cal.App.4th 1028, 1035; see also Blank v. Kirwan
(1985) 39 Cal.3d 311, 318.) Even where a pleading fails
to state a cause of action, for the trial court to sustain
a demurrer without leave to amend is an abuse of
discretion if a plaintiff shows “there is a reasonable
possibility that the defect can be cured by amendment.”
(Ibid.)
The IHSS Program
IHSS is a “state and federally funded program
developed to permit persons with disabilities to live
safely in their own homes.” (Calderon v. Anderson
(1996) 45 Cal.App.4th 607, 610.) Counties administer
the program, pursuant to the requirements of Welfare
and Institutions Code section 12300 et seq. and
regulations promulgated by the California Department
of Social Services. (Basden v. Wagner (2010) 181
Cal.App.4th 929, 933–934 (Basden).) The program pays
for severely impaired Californians to receive up to 65
hours per week in supportive services, including
domestic services, personal care services, protective
supervision, and other specifically enumerated
categories of service. (Id. at p. 934; Welf. & Inst. Code,

App. 75
§ 12300, subd. (b).) “Protective supervision” is
monitoring of the behavior of a mentally impaired or
mentally ill recipient to safeguard him or her from
injury or accident. (Norasingh, supra, 229 Cal.App.4th
at p. 745.) It is “‘nonmedical oversight, akin to
baby-sitting.’” (Ibid.)
Those who provide services to IHSS beneficiaries
“work pursuant to various arrangements. Some are
civil service employees of a county; some are employees
of an entity that contracts with the county; some
contract directly with the county or authorized entity;
some are referred to the recipient by the authorized
entity; and some contract directly with the recipient.
([Welf. & Inst. Code] §§ 12301.6, 12302, 12302.1,
12302.25.)” (Basden, supra, 181 Cal.App.4th at p. 940.)
Sometimes, as in this case, a recipient’s parent receives
compensation for providing care through the IHSS
program, although the law limits both the
circumstances in which a parent can receive such
compensation and the categories of service for which
the parent can receive compensation. (Id. at pp.
934–935; Welf. & Inst. Code, § 12300, subd. (e).)1

1

Welfare and Institutions Code section 12300, subdivision (e),
provides: “Where supportive services are provided by a person
having the legal duty pursuant to the Family Code to provide for
the care of his or her child who is the recipient, the provider of
supportive services shall receive remuneration for the services only
when the provider leaves full-time employment or is prevented
from obtaining full-time employment because no other suitable
provider is available and where the inability of the provider to
provide supportive services may result in inappropriate placement
or inadequate care.” Family Code section 3910, subd. (a) places on
each parent “responsibility to maintain, to the extent of their

App. 76
The Language of the HUD Regulation
The applicable HUD regulation defines income
broadly, as “all amounts, monetary or not,” that a
Section 8 program participant receives or anticipates
receiving, unless such amounts are specifically
excluded. (24 C.F.R. § 5.609(a).) Income includes, for
example, “compensation for personal services” and
“[p]ayments in lieu of earnings, such as unemployment
and disability compensation” (24 C.F.R. § 5.609(b)),
except that income does not include any of the 16
categories expressly excluded in paragraph (c) of the
regulation. Most importantly for our purposes, income
does not include “[a]mounts paid by a State agency to
a family with a member who has a developmental
disability and is living at home to offset the cost of
services and equipment needed to keep the
developmentally disabled family member at home.”
(§ 5.609(c)(16).)
MHA does not dispute that, to the extent the IHSS
program pays for Reilly’s daughter to attend a day
program for special needs individuals or to receive
assistance from a care-giver other than her mother, the
value of those benefits must be excluded when
calculating the Reilly family’s income. According to
MHA, such expenditures are precisely the sort of
benefits that section 5.609(c)(16) is designed to cover—
reimbursement for out-of-pocket expenses the Reillys
incur for services necessary to having Reilly’s daughter

ability, a child of whatever age who is incapacitated from earning
a living and without sufficient means.”

App. 77
live at home.2 The dispute in this case is whether, to
the extent IHSS pays Reilly, rather than a third party,
to care for her daughter, those amounts are excludable
under section 5.609(c)(16). Reilly argues they are, on
the grounds that the services she provides are
necessary for her daughter to live at home, and the
IHSS payments offset the costs of those services. MHA
argues that one must incur an expense before it can be
offset with a reimbursement payment, so the services
Reilly provides cannot be characterized as offsetting
the costs of the services her daughter needs.
We are aware of only one other case that has
construed the language of section 5.609(c)(16), and it is
the case on which the trial court relied. In Anthony, the
Fifth Circuit considered the earnings of a tenant in
public housing whose son was disabled by multiple
sclerosis. (306 Fed. Appx. at p. 99.) The son received
in-home care services from a for-profit company, which
the State of Texas and the federal government
reimbursed through Medicaid. (Id. at p. 100.) The
for-profit company employed Anthony, the young man’s
mother, to care for her son (and other clients) and paid
her approximately $13,156 annually. (Ibid.) Anthony
paid federal income taxes on these earnings, but
argued that under section 5.609(c)(16) the local housing
2

With no citation to the record, MHA asserts that the Reillys
receive IHSS payments to cover costs for attendant care and
participation at a YMCA day program, in addition to payments to
compensate Reilly for her care-giving services. As these are not
facts in the petition or of which the court has taken judicial notice,
we ignore this information except to emphasize that nothing in our
decision should be understood to include any such expenses in
Reilly’s income.

App. 78
authority should exclude them from her income when
calculating her rent. (Ibid.)
In an unpublished decision, the Fifth Circuit
disagreed. The court noted at the outset that “all
state-funded in-home attendant-care services in Texas
are provided by private intermediaries, and Texas does
not provide any amounts directly to families . . . .”
(Anthony, supra, 306 Fed. Appx. at p. 101.) Overlooking
this obstacle, the court assumed section 5.609(c)(16)
would reach such pass-through funds in an appropriate
case. (Ibid.) Yet the court refused to exclude Anthony’s
earnings because it concluded “Anthony has incurred
no costs which must be offset with state funds.”
Equating “costs” with “out-of-pocket expenses,” the
court concluded “[o]ne must incur costs before they can
be offset.” (Id. at pp. 101–102.) Because the court
affirmed a judgment in favor of the local housing
authority on the basis of what it called the plain
language of section 5.609(c)(16), it declined to consider
a letter from HUD that the housing authority proffered
as the agency’s construction of the regulation. (Id. at p.
101.)
MHA urges us to follow Anthony in construing
section 5.609(c)(16). The plain meaning of “[a]mounts
paid . . . to offset the cost of services . . .” is that a family
must have incurred a cost, or expense, for services
before that cost can be offset, or reimbursed, by a state
agency’s payment, MHA argues. (24 C.F.R.
§ 5.609(c)(16) (italics added).) To construe the
regulation otherwise is to ignore the phrase “to offset
the cost of services . . . ,” and with it the interpretive
maxim that instructs us to construe a statute or

App. 79
regulation in a manner that gives meaning to every
word or phrase if possible, says MHA. (See, e.g.,
Dyna-Med, Inc. v. Fair Employment & Housing Com.
(1987) 43 Cal.3d 1379, 1386–1387.)
Reilly argues that MHA’s construction of section
5.609(c)(16) violates another interpretive maxim—that
MHA reads into the regulation limitations that are not
there, a practice courts should avoid if possible. (See
People v. Bautista (2008) 163 Cal.App.4th 762, 777.) To
“offset” means generally to counterbalance or
compensate for something, not only to reimburse for
out-of-pocket expenses previously incurred. (See
Steinmeyer v. Warner Cons. Corp. (1974) 42 Cal.App.3d
515, 518 [citing dictionary].) Reilly argues that if HUD
had intended the narrower concept, it would have used
language like “reimburse” and “out-of-pocket,” as it did
in defining other exemptions from income. For
example, another paragraph in the same regulation
exempts “[a]mounts received by the family that are
specifically for, or in reimbursement of, the cost of
medical expenses for any family member.” (24 C.F.R.
§ 5.609(c)(4); see also 24 C.F.R. § 5.609(c)(8)(iii)
[exempting amounts “specifically for or in
reimbursement of out-of-pocket expenses incurred” for
certain publicly assisted programs].) Reilly also argues
that in section 5.609(c)(16) the phrase “cost of services
. . . to keep the developmentally disabled family
member at home” should be read broadly to include
costs that the State of California would incur in the
absence of payments such as those to Reilly, as well as
Reilly’s “‘opportunity cost,’” meaning the income she
could have been earning at another job had she not

App. 80
given up opportunities for outside employment in order
to care for her daughter.
We agree with Reilly as to the interpretation of
“offset.” Section 5.609(c)(16)’s exemption from income
appears to reach money paid to a family so that the
family can go out and hire services or purchase
equipment necessary for the developmentally disabled
family member. Such payments “offset the cost of
services and equipment” that would otherwise fall on
the family. But they are not reimbursement for
out-of-pocket expenses if the family receives payment
before, rather than after, incurring the expense. For
this reason, Reilly is persuasive that MHA has too
narrowly defined “offset,” but this is a comparatively
small point that does not mean we agree with Reilly’s
construction of the regulation.
Considering further the meaning of “offset,” we
uncover the first of two problems with Reilly’s
construction of the phrase “cost of services . . . .” If a
payment is to “offset the cost of services,” the payment
must go to the same entity that incurs the cost of those
services. Otherwise the payment does not
counterbalance or compensate for the cost of services.
Here, section 5.609(c)(16) addresses amounts paid “to
a family . . . to offset the cost of services . . . .” This
means that the costs these payments offset must be
costs that the family itself incurs. We recognize that in
caring for her daughter Reilly performs services that
are of great value to the State of California, but we do
not think that the meaning of “cost of services . . . to
keep the developmentally disabled family member at
home” can be stretched to reach cost savings to the

App. 81
state from the provision of these services. To the extent
that Reilly construes “cost of services . . .” to include
costs to the State of California, we reject her
construction.
Reilly raises a closer question with her argument
that the “cost of services . . .” includes the opportunity
cost to Reilly of providing those services. IHSS
payments to Reilly do counterbalance or compensate
for her loss of income in staying home to care for her
daughter. And under one definition of the word “cost,”
this loss of income is a cost to Reilly. “Cost” can mean
a “loss or penalty incurred esp[ecially] in gaining
something.” (Merriam-Webster’s Collegiate Dict. (10th
ed. 2001) p. 262.) One speaks, for example, of the
human cost of a military campaign. Here, the loss that
Reilly suffers in order to care for her daughter is the
lost opportunity to earn income outside the home.
Reilly plausibly argues that the IHSS payments offset
this cost to Reilly of foregoing a job by compensating
her for providing in-home care.
There is, however, another more common and
concrete meaning of the word “cost,” namely “the
amount or equivalent paid or charged for something;
price.” (Merriam-Webster’s Collegiate Dict., supra, at
p. 262.) If “cost” means “price,” then the cost of services
that Reilly provides her daughter is, to Reilly, zero.
And because Reilly’s services are free to the family, the
family incurs no “cost of services or equipment . . .” that
the IHSS payments could be said to offset.
In choosing between these two plausible
constructions of section 5.609(c)(16), we look more
broadly to the language of the regulation of which

App. 82
paragraph (c)(16) is a part. Reilly reminds us, words
“‘that relate to the same subject matter “‘must be
harmonized to the extent possible.’”’” (People v.
Gonzales (2008) 43 Cal.4th 1118, 1127.) The word “cost”
appears two other places in section 5.609, one of which
is the regulation’s exemption from income for medical
expenses. That exemption covers “[a]mounts received
by the family that are specifically for, or in
reimbursement of, the cost of medical expenses for any
family member.” (24. C.F.R. § 5.609(c)(4)
(§ 5.609(c)(4)).) In this context, the word “cost” has to
be understood in its most common and concrete sense,
as referring to an amount charged or paid. We reach
that conclusion because “medical expenses” are specific
amounts paid for medical products or services. And the
phrase “specifically for, or in reimbursement of”
likewise suggests that a family anticipates incurring,
or has already incurred, a medical expense. Similarly
in the other place that section 5.609 uses “cost,” the
word means an amount of money paid, as in “the actual
cost of shelter and utilities” for a welfare recipient. (24
C.F.R. § 5.609(b)(6)(B)(ii) (§ 5.609(b)(6)(B)(ii)).) Because
“cost” has this concrete and specific meaning in section
5.609(c)(4) and section 5.609(b)(6)(B)(ii), we presume it
has the same meaning in section 5.609(c)(16).
Generally “‘words or phrases given a particular
meaning in one part of a statute must be given the
same meaning in other parts of the statute’” (People v.
Valencia (2017) 3 Cal.5th 347, 381), and “[t]he same
rules of construction apply to administrative rules as to
statutes” (Exelon v. Local 15, Intern. Broth. of Elec.
(7th Cir. (2012) 676 F.3d 566, 570 (Exelon)). Applying
this canon to construe section 5.609(c)(16), the “cost of
services and equipment needed to keep the

App. 83
developmentally disabled family member at home”
must refer to amounts of money that the Reilly family
pays, rather than lost opportunities or other
non-financial penalties it incurs.
History, Policy,
Interpretation

and

Deference

to

Agency

The parties agree that where the language of a
regulation lends itself to more than one plausible
reading, we must consider other interpretive methods.
To the extent the language of section 5.609(c)(16)
leaves room for ambiguity, we look to the history of the
regulation’s enactment and the reasonableness of the
competing proposed constructions, and we defer to an
agency’s authoritative interpretation of its own
regulations. (See Mt. Hawley Ins. Co. v. Lopez (2013)
215 Cal.App.4th 1385, 1396–1397; Bialo v. Western
Mutual Ins. Co. (2002) 95 Cal.App.4th 68, 76–77;
Exelon, supra, 676 F.3d at p. 570; Robinson v. District
of Columbia Housing Authority (D.D.C. 2009) 660
F.Supp.2d 6, 17.) The parties disagree on whether the
language of the regulation is sufficiently ambiguous
that the court must engage in this process. We need not
settle that dispute, since our analysis of these other
issues, like our analysis of the language of the
regulation, leads us to conclude that MHA’s
interpretation of section 5.609(c)(16) is correct.
Reilly cites several passages from the rulemaking
record that we think are unhelpful in resolving the
interpretive issue before us. On April 5, 1995, HUD
published as an interim rule the exact language
defining an exclusion from income that later became
section 5.609(c)(16). (See 60 Fed. Reg. 17391–17393

App. 84
(Apr. 5, 1995).) The explanation for HUD’s proposal
was brief: “This exclusion exempts amounts paid by a
State agency to families that have developmentally
disabled children or adult family members living at
home. States that provide families with homecare
payments do so to offset the cost of services and
equipment needed to keep a developmentally disabled
family member at home, rather than placing the family
member in an institution. Since families that strive to
avoid institutionalization should be encouraged, and
not punished, the Department is adding this additional
exclusion to income. The Department wishes to point
out that today’s interim rule does not define
‘developmentally disabled’ since whether a family
member qualifies as developmentally disabled, and is
therefore eligible for homecare assistance, is
determined by each individual State.” (60 Fed. Reg.
17389 (Apr. 5, 1995).) We view this explanation as too
summary to be enlightening. It speaks in generalities,
and does not address the specific issue of whether all
amounts paid by a state agency to a family with a
developmentally disabled person living at home are
excluded, or only those amounts that offset the family’s
expenditures for necessary services and equipment.
Equally unhelpful is the only comment added to the
federal register when the rule became final. In
response to a suggestion that HUD clarify the terms
“developmentally disabled children” and “adult family
members,” HUD declined. HUD explained that its rule
defers to the definitions used by the State program
providing payments, so that where a family receives
payments the housing authority should consider the
family eligible for the exclusion. (61 Fed. Reg. 54497

App. 85
(Oct. 18, 1996).) This portion of the rule-making record
also does not speak to the interpretive issue before us,
as both parties agree that Reilly’s daughter is a person
whose disability makes the family eligible for the
exclusion. The question is the scope of payments to the
Reilly family that section 5.609(c)(16) excludes,
specifically whether or not payments for services that
Reilly provides her daughter are excludable as
payments “to offset the cost” of necessary services.
(§ 5.609(c)(16).)
The rule-making record having failed to answer the
question before the court, we turn now to comparing
the results of the two proposed constructions. If a
regulation “‘is amenable to two alternative
interpretations, the one that leads to the more
reasonable result will be followed.”’ (Greening v.
Johnson (1997) 53 Cal.App.4th 1223, 1229; see also
Exelon, supra, 676 F.3d at 570.)
If the court adopts MHA’s construction of the
regulation, then families with a developmentally
disabled family member at home will be able to exclude
IHSS payments from income only to the extent the
payments go to provide services and equipment for
which the family pays. For example, if the family pays
an in-home service provider to care for a disabled child
while an able parent works outside the home, IHSS
payments to cover the cost of that homecare aide are
not counted toward the family’s income. Only the
parent’s outside income counts. If instead the parent
takes on the job of providing the child’s homecare, as
occurred in this case, then the IHSS payments to
compensate for parental care count toward income, but

App. 86
the parent has no outside income. Just as IHSS
payments substitute in the family’s budget for the
money the parent would have earned outside the home,
so, too, they substitute for those foregone wages in
being counted as income.
We believe this result is a reasonable outcome.
First, the regulation so construed treats comparably
two families with a developmentally disabled family
member: one family in which a third party cares for the
disabled person, and the other in which a parent does.
Presumably the HUD regulation, like the IHSS
program, seeks to assist both families, and to assist
them equally. A second reason we think the result is
reasonable is that it achieves a measure of parity
between a family with a developmentally disabled
family member and a family with a member disabled
by severe medical problems. Under MHA’s proposed
construction, a family’s out-of-pocket costs to provide
protective supervision for a developmentally disabled
family member are exempted from income under
section 5.609(c)(16), just as medical expenses for a
medically fragile family member are exempted under
section 5.609(c)(4). But IHSS payments that
compensate a parent who provides care for her
developmentally disabled child are not exempted, just
as they would not be for a parent providing care for a
physically disabled family member. In this respect,
section 5.609(c)(16) as MHA construes it eliminates a
disparity between the families of those with a
developmentally disabled family member and families
with a member disabled by medical problems.

App. 87
By contrast, Reilly’s construction of the regulation
gives people in Reilly’s position a benefit that
comparable families do not receive. Reilly would have
her rent calculated as if she had no income from work
at all, while another family with a disabled family
member in which the parent works outside the home
and pays a third party to provide homecare would have
to pay rent calculated to include the parent’s outside
income. Also inequitable would be the result that, by
virtue of her daughter’s disabilities being
developmental rather than physical, Reilly’s
construction would allow her to exclude IHSS
payments for parental care-giving, which a parent
receiving IHSS payments to care for a child disabled by
medical problems could not do.
In sum, comparing the results of the competing
constructions confirms our conclusion that MHA and
the trial court correctly construe section 5.609(c)(16).
We reach this conclusion without the benefit of the
final interpretive tool the parties have urged upon
us—deference to an agency’s interpretation of its own
regulation—because neither party points us toward an
authoritative HUD interpretation of section
5.609(c)(16). MHA attempts to do so in its request for
judicial notice filed on May 30, 2017, but we deny that
request.
MHA requests this court take judicial notice of a
short letter dated May 10, 2017, to MHA’s general
counsel from the Director, Office of Public Housing,
U.S. Department of Housing and Urban Development,
San Francisco Regional Office – Region IX. The letter
attaches a 2007 letter from HUD’s Office of General

App. 88
Counsel – Assisted Housing Division opining that the
mother in Anthony could not exclude her wages from
income under section 5.609(c)(16), representing that
this decade-old opinion is “our current interpretation of
24 C.F.R. section 5.609(c)(16).” If the 2017 letter could
be characterized as an official act of the executive
branch, we could choose to take judicial notice of it (see
Evid. Code, § 452, subd. (c); § 459, subd. (a)), but we
decline to do so. “Litigation-inspired opinions have no
authority” where “the administrative agency is a party
to the litigation.” (People ex rel. Lungren v. Cotter & Co.
(1997) 53 Cal.App.4th 1373, 1393.) On its face, the
2007 opinion is litigation-inspired, and like the
Anthony court we construe section 5.609(c)(16) without
reference to it. (See Anthony, supra, 306 Fed. Appx. at
p. 101.)
Because we agree with the trial court and MHA on
the meaning of section 5.609(c)(16), we find no error in
the trial court’s order sustaining MHA’s demurrer to
the petition. Reilly has shown no reasonable possibility
that she could cure the defect if granted leave to
amend, so we find no abuse of discretion in the trial
court’s decision to dismiss the petition with prejudice.
DISPOSITION
The decision of the trial court is affirmed. In the
interests of justice, each party shall bear its own costs
on appeal.

App. 89
_________________________
Tucher, J.*
We concur:
_________________________
Kline, P.J.
_________________________
Richman, J.

A149918, Reilly v. Marin Housing Authority

*

Judge of the Alameda County Superior Court, assigned by the
Chief Justice pursuant to article VI, section 6 of the California
Constitution.

App. 90
Filed 5/15/18 after nonpublished opinion filed 4/25/18
CERTIFIED FOR PUBLICATION
IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION TWO
A149918
(Marin County
Super. Ct. No. CIV 1503896)
__________________________________________
KERRIE REILLY,
)
)
Plaintiff and Appellant,
)
)
v.
)
)
MARIN HOUSING AUTHORITY,
)
)
Defendant and Respondent. )
__________________________________________)
BY THE COURT:
The opinion in the above-entitled matter filed on
April 25, 2018, was not certified for publication in the
Official Reports. For good cause and pursuant to
California Rules of Court, rule 8.1105, it now appears
that the opinion should be published in the Official
Reports, and it is so ordered.
Dated: _______________________
______________________________
Richman, Acting P.J.

App. 91
Court: Marin County Superior Court
Trial Judge: Hon. Paul M. Haakenson
Attorneys for Appellant

Law Offices of Frank S.
Moore
Frank S. Moore

Attorneys for Respondent

WFBM, LLP
Randall J. Lee
Anne C. Gritzer

A149918, Reilly v. Marin Housing Authority

App. 92

APPENDIX C
RANDALL J. LEE, State Bar No. 144220
rlee@wfbm.com
ANNE C. GRITZER, State Bar No. 172496
agritzer@wfbm.com
WFBM, LLP
601 Montgomery Street, Ninth Floor
San Francisco, California 94111-2612
Telephone: (415) 781-7072
Facsimile: (415)391-6258
Attorneys for Respondent,
MARIN HOUSING AUTHORITY
SUPERIOR COURT OF THE STATE OF CALIFORNIA
COUNTY OF MARIN
Case No. CIV 1503896
[Filed: November 4, 2016]
____________________________________
KERRlE REILLY,
)
)
Petitioner,
)
)
v.
)
)
MARIN HOUSING AUTHORITY,
)
)
Respondent.
)
____________________________________)

App. 93
ORDER SUSTAINING RESPONDENT MARIN
HOUSING AUTHORITY’S DEMURRER TO
PETITIONER’S AMENDED VERIFIED
PETITION FOR WRIT OF ADMINISTRATE
MANDATE AND WRIT OF MANDATE
Date:
Time:
Dept:
Judge:

November 4, 2016
1:30 P.M.
E
The Honorable Paul Haakenson

On November 4, 2016, Respondent MARIN
HOUSING AUTHORITY’s (“respondent”) demurrer to
KERRIE REILLY’s (“petitioner”) first amended petition
for writ came on for hearing in Department E of the
above-entitled court, the Honorable Paul Haakenson
presiding. John Holman appeared on behalf of
petitioner, and Anne C. Gritzer appeared on behalf of
respondent.
The Court, having read and considered the
pleadings and considered the arguments of counsel and
good cause appearing, hereby ORDERS, ADJUDGES,
AND DECREES as follows:
Respondent’s demurrer to the petitioner’s first
amended petition is SUSTAINED WITHOUT LEAVE
TO AMEND on the grounds that first amended petition
as a whole fails to state facts sufficient to state a cause
of action. (Code Civ. Proc. § 430.10(e).) Both causes of
action are premised on petitioner’s position that
respondent improperly included her IHSS income in
the calculation of her annual income citing 24 C.F.R.
§ 5.609(c)(16). Petitioner is wrong as a matter of law.

App. 94
Pursuant to section 5.609(b), annual income
includes “[t]he full amount, before any payroll
deductions, of wages and salaries...and other
compensation for personal services,” and [p]ayments in
lieu of earnings, such as unemployment and disability
compensation [and] worker’s compensation...”
(§ 5.609(b)(1) and (5).) IHSS “‘compensates persons who
provide the services to a qualifying individual”’
(Norasingh v. Lightbourne (2014) 229 Cal.App.4th 740,
744) and therefore is an “employer” for purpose of the
state public employee-employer relation laws (i.e.,
unemployment compensation and workers’
compensation). (Basden v. Wagner (2010) 181
Cal.App.4th 929, 940.) The issue was specifically
addressed in Anthony v. Poteet Housing Authority (5th
Cir. 2009) 306 Fed.Appx. 98, and the court finds the
reasoning in that opinion persuasive. Like the plaintiff
in that case, Petitioner has not incurred out-of-pocket
expenses that are being “offset” by the IHSS payment.
She is being paid for her services. Petitioner’s reliance
on HUD’s background discussion of the interim rule
which added the subject exclusion fails. If HUD
intended to exclude all amounts paid by a State agency
to a family that has a developmentally disabled family
member living at home there would have been no
reason for it to go on to state in the regulation itself
that such excluded amounts are paid “to offset th cost
of services and equipment needed to keep the
developmentally disabled family member at home[.]”
That language must have some meaning.
Both sides’ requests for judicial notice are granted.
The court did not consider the declaration submitted by
Petitioner with her opposition as the court cannot

App. 95
consider such extrinsic evidence in analyzing a
demurrer. (See Code Civ. Proc. § 430.30, subd. (a).)
Because the Court sustains the demurrer to the
first amended petition without leave to amend, the first
amended petition is DISMISSED WITH PREJUDICE.
IT IS SO ORDERED.
Dated: 11/4, 2016
/s/ Paul M. Haakenson
Honorable Paul Haakenson
Judge of the Superior Court of California

App. 96

APPENDIX D
RANDALL J. LEE, State Bar No. 144220
rlee@wfbm.com
ANNE C. GRITZER, State Bar No. 172496
agritzer@wfbm.com
WFBM, LLP
601 Montgomery Street, Ninth Floor
San Francisco, California 94111-2612
Telephone: (415) 781-7072
Facsimile: (415) 391-6258
Attorneys for Respondent,
MARIN HOUSING AUTHORITY
SUPERIOR COURT OF THE STATE OF CALIFORNIA
COUNTY OF MARIN
Case No. CIV 1503896
[Filed: November 4, 2016]
____________________________________
KERRlE REILLY,
)
)
Petitioner,
)
)
v.
)
)
MARIN HOUSING AUTHORITY,
)
)
Respondent.
)
____________________________________)

App. 97
JUDGMENT DISMISSING PETITIONER’S
AMENDED VERIFIED PETITION WITH
PREJUDICE
Date:
Time:
Dept:
Judge:

November 4, 2016
1:30 P.M.
E
The Honorable Paul Haakenson

On November 4, 2016, the Court sustained
Respondent MARIN HOUSING AUTHORITY’s
(“respondent”) demurrer to KERRIE REILLY’s
(“petitioner”) first amended petition without leave to
amend and dismissed this action with prejudice.
Accordingly, IT IS ORDERED, ADJUDGED, and
DECREED that JUDGMENT is entered in favor of
MARIN HOUSING AUTHORITY that petitioner
KERRIE REILLY shall take nothing by way of her
petition, and that this action is DISMISSED WITH
PREJUDICE.
IT IS SO ORDERED.
Dated: 11-4, 2016
/s/ Paul M. Haakenson
Honorable Paul Haakenson
Judge of the Superior Court of California

App. 98

APPENDIX E
SECTION 8 INFORMAL HEARING DECISION
MARIN HOUSING AUTHORITY
[Dated: September 8, 2015]
Participant:

Kerrie Reilly

Hearing Date:

Tuesday, August 25, 2015

Hearing Location:

Marin Housing Authority, 4020
Civic Center Drive, San Rafael,
CA 94903

Attending:

Kerrie Reilly, Participant
D’Jon Scott-Miller, MHA
Assistant Program Manager,
Section 8

Hearing Officer:

Danielle Winford

BACKGROUND:
Housing Choice Voucher participant, Kerrie Reilly
requested an informal hearing regarding the decision
made by Marin Housing Authority (MHA) to terminate
her housing assistance effective August 15, 2015. In a
termination notice sent 7/31/2015, MHA alleged that
Ms. Reilly committed violations of the Code of Federal
Regulations, the Housing Choice Voucher Family
Obligations and the MHA Administrative Plan as
follows:

App. 99
24CFR 982.552 (c)
Authority to deny admission or terminate assistance –
(1) Grounds for denial or termination of assistance. The
PHA may at any time deny program assistance for an
applicant, or terminate program assistance for a
participant, for any of the following grounds:
(i) If the family violates any family obligations under
the program (see § 982.551). See § 982.553 concerning
denial or termination of assistance for crime by family
members.
(v) If the family currently owes rent or other amounts
to the PHA or to another PHA in connection with
Section 8 or public housing assistance under the 1937
Act.
(vi) If the family has not reimbursed any PHA for
amounts paid to an owner under a HAP contract for
rent, damages to the unit, or other amounts owed by
the family under the lease.
(vii) If the family breaches an agreement with PHA to
pay amounts owed to PHA, or amounts paid to an
owner by a PHA. (The PHA, at its discretion, may offer
a family the opportunity to enter an agreement to pay
amounts owed to a PHA or amounts paid to an owner
by a PHA. The PHA may prescribe the terms of the
agreement.)
Family Obligations
H-3. Use and occupancy of units: The family must
promptly notify the PHA if any family member no
longer resides in the unit.

App. 100
Marin County Housing Authority-HCV
Administrative Plan
16-IV.B. REPAYMENT POLICY
Family Debts to MHA-MHA Policy:
Any amount due to MHA by an HCV participant must
be repaid by the family. If the family is unable to repay
the debt within 30 days, MHA will offer to enter into a
repayment agreement in accordance with the policies
below. If the family refuses to repay the debt, enter into
a repayment agreement, or breaches a repayment
agreement, MHA will terminate the assistance upon
notification to the family and pursue other modes of
collection.
Non-Payment-MHA Policy:
If a full monthly payment is not received by the end of
the month of the date due, and prior approval for the
missed payment has not been given by MHA, MHA will
consider the family agreement delinquent. Notice of
missed payment will be given to the family, if the
payment is not received by the due date of the
delinquency notice, it will be considered a breach of the
agreement.
If a family misses 3 payments in a 12-month period,
the repayment agreement will be considered in default,
and MHA will terminate assistance upon written
notification to the family and owner.
Specifically,
Ms. Reilly defaulted on her repayment agreement in
February 2014 (originally signed 09/16/2009, latest

App. 101
revision signed 02/16/2012). Ms. Reilly has not made
any payments toward her outstanding debt from March
2014 to June 2015.
In a previous hearing decision dated 01/12/2011, the
hearing officer stated that, “If Ms. Reilly fails to make
any future payments; the family’s housing assistance
will be terminated.”
SUMMARY OF EVIDENCE:
Marin Housing Authority (MHA)
MHA began the hearing with testimony and a
summary of documents that pertained to the decision
that was made. The following documents were received
at the hearing
• A copy of the 09/16/2009 initial repayment
agreement, signed by Ms. Reilly agreeing to
owing MHA $16,011 for not reporting the change
in family composition and to pay $486 a month
for 33 months to pay off her debt.
• A copy of the signed agreement dated 09/25/2009
reducing Ms. Reilly’s monthly payment from
$486 for 33 months to $258 for 60 months to pay
off debt.
• A copy of the signed agreement dated 10/24/2009
reducing Ms. Reilly’s monthly payment from
$258 for 60 months to $222 for 72 months to pay
off debt.
• A copy of the Termination notice issued to Ms.
Reilly dated 12/01/2010 for missing 3
consecutive payments as part of her repayment
plan.

App. 102
• A copy of the results from the informal hearing
that Ms. Reilly was granted to dispute the
termination notice from Compliance Officer,
Kathleen Wyatt.
• A copy of the revised repayment schedule adding
the missed 3 months to the end of her term.
• A copy of Ms. Reilly’s request in writing
requesting her payments of $222 be reduced.
• A copy of MHA notice denying Ms. Reilly’s
request for a reduction dated 03/01/2011.
• A copy of the letter from Ms. Reilly dated
03/24/2011, to the then Executive Director, Dan
Nackerman, requesting a review and discussion
of her case as well as a request for a reduction of
her payments or alternative method to pay her
debt to taxpayers.
• A copy of the letter from Compliance Officer,
Kathleen Wyatt, responding to her appeal that
was previously sent to Dan Nackerman, allowing
her a “reasonable accommodation” and reducing
her payment to $150 dated 03/28/2011.
• A copy of the amendment to the repayment
agreement dated 03/29/2011, that Ms. Reilly
signed reducing her payments to $150.
• A copy of a termination notice the Ms. Reilly was
issued on 02/02/12 due to 3 consecutive missed
payments of $150. Also a copy of the hearing
date that Ms. Reilly and Ms. Rasmussen
requested that was set for 02/29/2012.
• A copy of the email conversation beginning on
02/13/2012 between Ms. Reilly and Deputy
Director, Kimberly Carroll, requesting that she
be allowed to come current in her payments. Ms.
Carroll agreed to allow Ms. Reilly to come

App. 103

•

•

•

•

•
•

current with payments by paying $300 per
month for February, March and April of 2012
and on 05/01/12, her payments would resume to
$150 per month.
A copy of the updated amended repayment
agreement that Ms. Reilly signed on 02/16/2012
to pay the agreed upon $300 monthly payments
for February, March and April of 2012 to catch
up for the missed payments and to resume at
$150 per month beginning 05/01/2012.
A copy of the ledger showing all payments and
non payments made toward the repayment
agreement from Ms. Reilly beginning in 2010 to
present; there were missed payments for 16
months, March 2014 to June 2015.
A copy of the 06/25/2015 termination letter
issued to Ms. Reilly for non-payment toward
balance due to MHA from the signed repayment
agreement.
A copy of the hearing results dated 07/27/2015
overturning MHA’s notice to terminate Ms.
Reilly’s voucher due to insufficient evidence on
MHA part to support the claim of failure to
report income.
A copy of a revised termination letter issued to
Ms. Reilly on 07/31/2015.
A recording of the last hearing with Hearing
Officer, James Butler from 07/22/2015.
Kerrie Reilly

Ms. Reilly addressed some of the evidence presented by
MHA and gave her testimony along with the following

App. 104
documents to be reviewed as evidence in her case after
MHA concluded their summary:
• A copy of a 4 page narrative titled “Informal
Hearing: Kerrie Reilly vs. MHA, August 25,
2015, Cover Letter” discussing her overall claim
as to why she withheld information from MHA,
her interactions with the staff at MHA, her
being unaware and uninformed of Reasonable
Accommodations and her and her daughters
background.
• A copy of a 3 page narrative titled, “Financial
Hardships=Health Hardships: Anxiety,
Depression & Stress related Illnesses,” which
discussed the hardship this has caused her and
her family.
• A copy of a 1 page narrative titled, “Exempt
Income - In Home Support Services (IHSS),”
discussing the laws she researched and
discovered about how IHSS payments are to be
calculated with a disabled family member in the
home that is being cared for.
• A copy of a 2 page narrative titled, “Reasonable
Accommodations,” discussing the laws that she
researched and discovered about reasonable
accommodations and her experience with MHA
in relation to reasonable accommodations.
• A copy of a side by side comparison titled,
“Weighing the Difference of Truth &
Consequences,” comparing her experience vs.
MHA’s experience.
• A copy of a fax dated 01/18/1999, to Whisper
Smith asking about her options in the future

App. 105

•

•

•

•
•
•

•
•

•
•

when her daughter Rachel moved out and
requesting that they stay where they were.
A copy of and electronic CFR, Title 24; Subtitle
B; Chapter IX; Part 966; Subpart A; Section
966.7(b) about PHA providing notice to tenants
about reasonable accommodations.
A copy of her Interim Re-exam form, letter to
Cheryl Cross, MHA Eligibility Worker,
requesting a change in her Income based on
change in IRS laws with a copy of supporting
documents to support her claim and her 2014
tax return.
A printout of an article titled, “Study: Family
caregivers provide $470B in unpaid services,”
with copies of receipts from prescriptions,
therapy appointments and a copy of Patient
Plan for 12/08/2014 for her daughter K.R.
A printout of Reasonable Accommodation in
Federally Assisted Housing p.1-31.
A printout from Oakland Housing Authorities
website on Reasonable Accommodation.
A copy of the Reasonable Accommodation Packet
for Section 8 Participants from the Housing
Authority of the City of Long Beach.
A copy of Ms. Reilly’s HUD 52646, Section 8
Voucher form.
A copy of Marin County Housing Authority HCV
Administrative Plan, p.32, section 2-II.C.
Request for an Accommodation.
A copy of an electronic CFR, Title 24; Subtitle A;
Part; Subpart F; section 5.609(c)(16).
A printout from the State of California
Department of Development Services IHSS
definition.

App. 106
• A copy of Verification of Income Exclusions.
• Copies of IHSS direct deposit statements.
Additional documents and/or correspondences received
after the hearing from Ms. Reilly.
• Two faxes sent to D’Jon Scott Miller at MHA on
08/25/2015, with a memo discussing the
attached pay stubs from IHSS showing her tax
exempt status for July and August 2015 and a
memo informing me that she studied the
Lanterman Act as opposed to the American
Disabilities Act (ADA) and why she was not
familiar with Reasonable Accommodations.
• A fax sent directly to my place of business on 24
CFR § 982.555(e)(5) Evidence, 24 CFR § 982.555
Informal hearing for participant (e) Hearing
procedures (2) Discovery (i) on 08/31/2015.
• 2 emails sent to me on 09/01/2015, 4 emails sent
to me on 09/02/2015 as a result of requesting to
speak directly to me.
FINDINGS OF FACT:
Based on a preponderance of all evidence·presented
and all discussions heard pertaining to the notice of
termination sent by MHA, I make the following
findings of fact:
• Ms. Reilly did not promptly notify MHA when
her daughter Rachel moved out of the subsidized
unit.
• On 09/16/2009 Ms. Reilly entered into a
repayment agreement, and admitted to owing
MHA $16,011 for not reporting the change in

App. 107

•

•
•

•
•

family composition and agreed to pay $486 a
month for 33 months to pay off her debt.
At Ms. Reilly’s request, MHA agreed to modify
Ms. Reilly’s repayment agreement on 4
occasions: 09/25/2009, 10/24/2009, 03/29/2011,
and 02/16/2012.
In 2010, Ms. Reilly breached her repayment
agreement.
Following her 2010 breach, a hearing was
conducted and the hearing officer stated, “If Ms.
Reilly fails to make any future payments; the
family’s housing assistance will be terminated.”
In 2012, Ms. Reilly breached her repayment
agreement.
In 2014 and 2015, Ms. Reilly breached her
repayment agreement and missed payments for
16 months.
CONCLUSION

Based on all evidence presented and all discussions
heard, it has been found that Marin Housing Authority
had cause to and was justified in its action to terminate
the voucher of Ms. Kerrie Reilly based on her conduct.
Ms. Reilly did not present evidence to dispute the
NON-PAYMENT of debt to MHA by the dates
established in the repayment agreement signed most
recently on 02/16/2012.
The case Ms. Reilly presented is based on factors not
related to the actual cause of termination and therefore
she failed to present sufficient evidence to justify why
she fell short on making the payments that she agreed
to after four reductions of the payment amounts. Ms.
Reilly also admitted in my presence that she witheld

App. 108
that her household composition had changed and
therefore incurred this debt.
Based on the forgoing findings of fact, I conclude Ms.
Reilly committed the following Violations:
24CFR 982.552 (c)
Authority to deny admission or terminate assistance –
(1) Grounds for denial or termination of assistance. The
PHA may at any time deny program assistance for an
applicant, or terminate program assistance for a
participant, for any of the following grounds:
(vii) If the family breaches an agreement with the PHA
to pay amounts owed to a PHA, or amounts paid to an
owner by a PHA. (The PHA, at its discretion, may offer
a family the opportunity to enter an agreement to pay
amounts owed to o PHA or amounts paid to an owner
by a PHA. The PHA may prescribe the terms of the
agreement.)
Marin County Housing Authority- HCV Administrative
Plan
16-IV.B. REPAYMENT POLICY
Family Debts to MHA-MHA Policy
Any amount due to MHA by an HCV participant must
be repaid by the family. If the family is unable to repay
the debt within 30 days, MHA will offer to enter into a
repayment agreement in accordance with the policies
below. If the family refuses to repay the debt, enter into
a repayment agreement, or breaches a repayment
agreement, MHA will terminate the assistance upon

App. 109
notification to the family and pursue other modes of
collection.
Non-Payment
MHA Policy
If a full monthly payment is not received by the end
of the month of the date due, and prior approval for
the missed payment has not been given by MHA,
MHA will consider the family agreement
delinquent. Notice of missed payment will be given
to the family, if the payment is not received by the
due date of the delinquency notice, it will be
considered a breach of the agreement.
If a family misses 3 payments in a 12-month period,
the repayment agreement will be considered in
default, and MHA will terminate assistance upon
written notification to the family and owner.
Family Obligations
H-3. Use and occupancy of unit: The family must
promptly notify the PHA if any family member no
longer resides in the unit
ORDER
MHA’s termination of Kerrie Reilly’s Housing Choice
Voucher is upheld.
Signed:

/s/ Danielle Winford
Danielle Winford, Hearing Officer

Date:

9/8/15

App. 110
Cc:

Kim Ventresca, Project Manager, MHA
D’Jon Scott-Miller, Assistant Program
Manager, MHA
Kerrie Reilly, MHA Participant
[Proof of Service omitted
for purposes of this Appendix]

App. 111

APPENDIX F
October 7, 2015

[Marin Housing
Logo Redacted]

Kerrie Reilly
[Address Redacted]
Re:

Request for Rehearing, Further Hearing, or
Appeal

Dear Kerrie Reilly:
Marin Housing Authority (“MHA”) received your
request for a rehearing, further hearing, or appeal
(Appeal) on September 22, 2015. The Executive
Director, Lewis Jordan, designated me to serve as the
Appellate Officer.
A brief description of the issues you raised include:
1) There was a violation of the informal hearing
procedures, because you allege that the Hearing
Officer failed to state the reason for her decision,
and provide a summary of the evidence, and
2) You allege that the findings are not supported
by the evidence, because you claim IHSS
income/payments, and requests for reasonable
accommodations were not considered.
An independent third party conducted an informal
hearing on August 25, 2015, and upheld the
termination of your Housing Choice Voucher.

App. 112
Per MHA’s Administrative Plan.
“The only grounds on which an appeal will be granted
are:
1) There was a violation of the informal hearing process;
2) The decision is not supported by the findings; or
3) The findings are not supported by the evidence.”
Your request does not demonstrate cause, supported by
specific references to the Hearing Officer’s decision and
why the request should be granted.
First, there was no violation of the hearing process.
The Hearing Officer’s findings include but are not
limited to the following: you did not object to the basis
for the housing authority’s decision to terminate the
household’s participation in the program; you did not
dispute your non-payment of debt to the housing
authority; and defaulted on the signed agreement on at
least three occasions. I find that the Hearing Officer
stated the reason for her conclusion, provided an
adequate summary of the evidence, including
testimony, and complied with the hearing process.
[Marin Housing
Logo Redacted]
Second, the Hearing Officer issued a written decision
to the household and MHA. It included a summary of
the evidence, identifying a bullet list of 21 documents,
and written and spoken testimony produced at the
hearing. The Hearing Officer’s decision contains
numerous references to your spoken testimony, such as
“discussing her overall claim, discussed the hardship,
discussing the laws she researched, comparing her

App. 113
experience, asking about her options, requesting a
change in her income,” etc.
I find that the Hearing Officer’s decision is supported
by the findings due to the violations of the Housing
Choice Voucher Administrative Plan.
Finally, the Hearing Officer’s findings are supported
based on the preponderance of the evidence-the
Hearing Officers findings were derived from
documentation and testimony.
Based on the foregoing, your request for a rehearing,
further hearing, or appeal is denied.
Please keep in mind that there are other legal remedies
available to you, such as initiating a civil action, and
this denial docs not in any way preclude you from
proceeding with any other legal remedies that may be
open to you.
Thank you,
/s/ Bernadette Stuart
Bernadette Stuart
CC:

Lewis Jordan, Executive Director
Tenant File

App. 114

APPENDIX G
1. 42 U.S.C. 1437a provides:
Rental Payments
(b) Definition of terms under this Act.
(4) The term “income” means income from all
sources of each member of the household, as
determined in accordance with criteria prescribed
by the Secretary; in consultation with the Secretary
of Agriculture, except that any amounts not actually
received by the family and any amounts which
would be eligible for exclusion under section
1613(a)(7) of the Social Security Act (42 U.S.C.
1382b(a)(7)) or any deferred Department of
Veterans Affairs disability benefits that are
received in a lump sum amount or in prospective
monthly amounts may not be considered as income
under this paragraph.
(5) Adjusted income. The term “adjusted income”
means, with respect to a family, the amount (as
determined by the public housing agency) of the
income of the members of the family residing in a
dwelling unit or the persons on a lease, after any
income exclusions as follows:
(A) Mandatory exclusions. In determining
adjusted income, a public housing agency shall
exclude from the annual income of a family the
following amounts:

App. 115
(i) Elderly and disabled families. $400 for
any elderly or disabled family.
(ii) Medical expenses. The amount by which
3 percent of the annual family income is
exceeded by the sum of—
(I) unreimbursed medical expenses of any
elderly family or disabled family;
(II) unreimbursed medical expenses of
any family that is not covered under
Subclause (I), except that this subclause
shall apply only to the extent approved in
appropriation Acts; and
(III) unreimbursed reasonable attendant
care and auxiliary apparatus expenses for
each handicapped member of the family,
to the extent necessary to enable any
member of such family (including such
handicapped member) to be employed.
(iii) Child care expenses. Any reasonable
child care expenses necessary to enable a
member of the family to be employed or to
further his or her education.
(iv) Minors, students, and persons with
disabilities. $480 for each member of the
family residing in the household (other than
the head of the household or his or her
spouse) who is less than 18 years of age or is
attending school or vocational training on a
full-time basis, or who is 18 years of age or
older and is a person with disabilities.

App. 116
*****
2. 42 U.S.C. 1437f provides:
Low-income housing assistance
(a) Authorization for assistance payments.
For the purpose of aiding low-income families in
obtaining a decent place to live and of promoting
economically mixed housing, assistance payments may
be made with respect to existing housing in accordance
with the provisions of this section.
(b) Other existing housing programs.
(1) In general. The Secretary is authorized to enter into
annual contributions contracts with public housing
agencies pursuant to which such agencies may enter
into contracts to make assistance payments to owners
of existing dwelling units in accordance with this
section.
*****
(c) Contents and purposes of contracts for
assistance payments; amount and scope of
monthly assistance payments.
(3) The amount of the monthly assistance payment
with respect to any dwelling unit shall be the
difference between the maximum monthly rent
which the contract provides that the owner is to
receive for the unit and the rent the family is
required to pay under section 3(a) of this Act [42
USCS § 1437a(a)]. Reviews of family income shall
be made no less frequently than annually.

App. 117
*****
(o) Voucher program.
(1) Authority.
(A) In general. The Secretary may provide
assistance to public housing agencies for tenantbased assistance using a payment standard
established in accordance with subparagraph
(B). The payment standard shall be used to
determine the monthly assistance that may be
paid for any family, as provided in paragraph
(2).
*****
(2) Amount of monthly assistance payment. Subject
to the requirement under section 3(a)(3) [42 USCS
§ 1437a(a)(3)] (relating to minimum rental amount),
the monthly assistance payment for a family
receiving assistance under this subsection shall be
determined as follows:
(A) Tenant-based assistance; rent not exceeding
payment standard. For a family receiving
tenant-based assistance, if the rent for the
family (including the amount allowed for tenantpaid utilities) does not exceed the applicable
payment standard established under paragraph
(1), the monthly assistance payment for the
family shall be equal to the amount by which the
rent (including the amount allowed for tenantpaid utilities) exceeds the greatest of the
following amounts, rounded to the nearest
dollar:

App. 118
(i) 30 percent of the monthly adjusted income
of the family.
(ii) 10 percent of the monthly income of the
family.
(iii) If the family is receiving payments for
welfare assistance from a public agency and
a part of those payments, adjusted in
accordance with the actual housing costs of
the family, is specifically designated by that
agency to meet the housing costs of the
family, the portion of those payments that is
so designated.
(B) Tenant-based assistance; rent exceeding
payment standard. For a family receiving
tenant-based assistance, if the rent for the
family (including the amount allowed for tenantpaid utilities) exceeds the applicable payment
standard established under paragraph (1), the
monthly assistance payment for the family shall
be equal to the amount by which the applicable
payment standard exceeds the greatest of
amounts under clauses (i), (ii), and (iii) of
subparagraph (A).
*****

App. 119
3. 42 U.S.C. 1396n provides:
Compliance with State plan and payment
provisions
(c) Waiver respecting medical assistance
requirement in State plan; scope, etc.
(1) The Secretary may by waiver provide that a
State plan approved under this title [42 USCS
§§ 1396 et seq.] may include as “medical assistance”
under such plan payment for part or all of the cost
of home or community-based services (other than
room and board) approved by the Secretary which
are provided pursuant to a written plan of care to
individuals with respect to whom there has been a
determination that but for the provision of such
services the individuals would require the level of
care provided in a hospital or a nursing facility or
intermediate care facility for the mentally retarded
the cost of which could be reimbursed under the
State plan.
*****
4.

24 C.F.R. 5.609 provides in full text:

Annual income.
(a) Annual income means all amounts, monetary or
not, which:
(1) Go to, or on behalf of, the family head or spouse
(even if temporarily absent) or to any other family
member; or

App. 120
(2) Are anticipated to be received from a source
outside the family during the 12-month period
following admission or annual reexamination
effective date; and
(3) Which are not specifically excluded in paragraph
(c) of this section.
(4) Annual income also means amounts derived
(during the 12-month period) from assets to which
any member of the family has access.
(b) Annual income includes, but is not limited to:
(1) The full amount, before any payroll deductions,
of wages and salaries, overtime pay, commissions,
fees, tips and bonuses, and other compensation for
personal services;
(2) The net income from the operation of a business
or profession. Expenditures for business expansion
or amortization of capital indebtedness shall not be
used as deductions in determining net income. An
allowance for depreciation of assets used in a
business or profession may be deducted, based on
straight line depreciation, as provided in Internal
Revenue Service regulations. Any withdrawal of
cash or assets from the operation of a business or
profession will be included in income, except to the
extent the withdrawal is reimbursement of cash or
assets invested in the operation by the family;
(3) Interest, dividends, and other net income of any
kind from real or personal property. Expenditures
for amortization of capital indebtedness shall not be
used as deductions in determining net income. An

App. 121
allowance for depreciation is permitted only as
authorized in paragraph (b)(2) of this section. Any
withdrawal of cash or assets from an investment
will be included in income, except to the extent the
withdrawal is reimbursement of cash or assets
invested by the family. Where the family has net
family assets in excess of $ 5,000, annual income
shall include the greater of the actual income
derived from all net family assets or a percentage of
the value of such assets based on the current
passbook savings rate, as determined by HUD;
(4) The full amount of periodic amounts received
from Social Security, annuities, insurance policies,
retirement funds, pensions, disability or death
benefits, and other similar types of periodic
receipts, including a lump-sum amount or
prospective monthly amounts for the delayed start
of a periodic amount (except as provided in
paragraph (c)(14) of this section);
(5) Payments in lieu of earnings, such as
unemployment and disability compensation,
worker’s compensation and severance pay (except as
provided in paragraph (c)(3) of this section);
(6) Welfare assistance payments
(i) Welfare assistance payments made under the
Temporary Assistance for Needy Families
(TANF) program are included in annual income
only to the extent such payments:
(A) Qualify as assistance under the TANF
program definition at 45 CFR 260.31; and

App. 122
(B) Are not otherwise excluded under
paragraph (c) of this section.
(ii) If the welfare assistance payment includes
an amount specifically designated for shelter
and utilities that is subject to adjustment by the
welfare assistance agency in accordance with the
actual cost of shelter and utilities, the amount of
welfare assistance income to be included as
income shall consist of:
(A) The amount of the allowance or grant
exclusive of the amount specifically
designated for shelter or utilities; plus
(B) The maximum amount that the welfare
assistance agency could in fact allow the
family for shelter and utilities. If the family’s
welfare assistance is ratably reduced from
the standard of need by applying a
percentage, the amount calculated under this
paragraph shall be the amount resulting
from one application of the percentage.
(7) Periodic and determinable allowances, such as
alimony and child support payments, and regular
contributions or gifts received from organizations or
from persons not residing in the dwelling;
(8) All regular pay, special pay and allowances of a
member of the Armed Forces (except as provided in
paragraph (c)(7) of this section).
(9) For section 8 programs only and as provided in
24 CFR 5.612, any financial assistance, in excess of
amounts received for tuition and any other required

App. 123
fees and charges, that an individual receives under
the Higher Education Act of 1965 (20 U.S.C. 1001 et
seq. ), from private sources, or from an institution of
higher education (as defined under the Higher
Education Act of 1965 (20 U.S.C. 1002)), shall be
considered income to that individual, except that
financial assistance described in this paragraph is
not considered annual income for persons over the
age of 23 with dependent children. For purposes of
this paragraph, “financial assistance” does not
include loan proceeds for the purpose of
determining income.
(c) Annual income does not include the following:
(1) Income from employment of children (including
foster children) under the age of 18 years;
(2) Payments received for the care of foster children
or foster adults (usually persons with disabilities,
unrelated to the tenant family, who are unable to
live alone);
(3) Lump-sum additions to family assets, such as
inheritances, insurance payments (including
payments under health and accident insurance and
worker’s compensation), capital gains and
settlement for personal or property losses (except as
provided in paragraph (b)(5) of this section);
(4) Amounts received by the family that are
specifically for, or in reimbursement of, the cost of
medical expenses for any family member;
(5) Income of a live-in aide, as defined in § 5.403;

App. 124
(6) Subject to paragraph (b)(9) of this section, the
full amount of student financial assistance paid
directly to the student or to the educational
institution;
(7) The special pay to a family member serving in
the Armed Forces who is exposed to hostile fire;
(8)
(i) Amounts received under training programs
funded by HUD;
(ii) Amounts received by a person with a
disability that are disregarded for a limited time
for purposes of Supplemental Security Income
eligibility and benefits because they are set
aside for use under a Plan to Attain SelfSufficiency (PASS);
(iii) Amounts received by a participant in other
publicly assisted programs which are specifically
for or in reimbursement of out-of-pocket
expenses incurred (special equipment, clothing,
transportation, child care, etc.) and which are
made solely to allow participation in a specific
program;
(iv) Amounts received under a resident service
stipend. A resident service stipend is a modest
amount (not to exceed $ 200 per month) received
by a resident for performing a service for the
PHA or owner, on a part-time basis, that
enhances the quality of life in the development.
Such services may include, but are not limited
to, fire patrol, hall monitoring, lawn
maintenance, resident initiatives coordination,
and serving as a member of the PHA’s governing

App. 125
board. No resident may receive more than one
such stipend during the same period of time;
(v) Incremental earnings and benefits resulting
to any family member from participation in
qualifying State or local employment training
programs (including training programs not
affiliated with a local government) and training
of a family member as resident management
staff. Amounts excluded by this provision must
be received under employment training
programs with clearly defined goals and
objectives, and are excluded only for the period
during which the family member participates in
the employment training program;
(9) Temporary, nonrecurring or sporadic income
(including gifts);
(10) Reparation payments paid by a foreign
government pursuant to claims filed under the laws
of that government by persons who were persecuted
during the Nazi era;
(11) Earnings in excess of $ 480 for each full-time
student 18 years old or older (excluding the head of
household and spouse);
(12) Adoption assistance payments in excess of
$ 480 per adopted child;
(13) [Reserved]
(14) Deferred periodic amounts from supplemental
security income and Social Security benefits that
are received in a lump sum amount or in
prospective monthly amounts, or any deferred

App. 126
Department of Veterans Affairs disability benefits
that are received in a lump sum amount or in
prospective monthly amounts.
(15) Amounts received by the family in the form of
refunds or rebates under State or local law for
property taxes paid on the dwelling unit;
(16) Amounts paid by a State agency to a family
with a member who has a developmental disability
and is living at home to offset the cost of services
and equipment needed to keep the developmentally
disabled family member at home; or
(17) Amounts specifically excluded by any other
Federal statute from consideration as income for
purposes of determining eligibility or benefits under
a category of assistance programs that includes
assistance under any program to which the
exclusions set forth in 24 CFR 5.609(c) apply. A
notice will be published in the Federal Register and
distributed to PHAs and housing owners identifying
the benefits that qualify for this exclusion. Updates
will be published and distributed when necessary.
(d) Annualization of income. If it is not feasible to
anticipate a level of income over a 12-month period
(e.g., seasonal or cyclic income), or the PHA believes
that past income is the best available indicator of
expected future income, the PHA may annualize the
income anticipated for a shorter period, subject to a
redetermination at the end of the shorter period.

App. 127
5.

24 C.F.R. 982.201 provides:

Eligibility and targeting.
(a) When applicant is eligible: General. The PHA may
admit only eligible families to the program. To be
eligible, an applicant must be a “family;” must be
income-eligible in accordance with paragraph (b) of this
section and 24 CFR part 5, subpart F; and must be a
citizen or a noncitizen who has eligible immigration
status as determined in accordance with 24 CFR part
5, subpart E. If the applicant is a victim of domestic
violence, dating violence, sexual assault, or stalking, 24
CFR part 5, subpart L (Protection for Victims of
Domestic Violence, Dating Violence, Sexual Assault, or
Stalking) applies.
(b) Income. (1) Income-eligibility. To be income-eligible,
the applicant must be a family in any of the following
categories:
(i) A “very low income” family;
(ii) A low-income family that is “continuously
assisted” under the 1937 Housing Act;
(iii) A low-income family that meets additional
eligibility criteria specified in the PHA
administrative plan. Such additional PHA criteria
must be consistent with the PHA plan and with the
consolidated plans for local governments in the
PHA jurisdiction;
(iv) A low-income family that qualifies for voucher
assistance as a non-purchasing family residing in a
HOPE 1 (HOPE for public housing homeownership)
or HOPE 2 (HOPE for homeownership of
multifamily units) project. (Section 8(o)(4)(D) of the
1937 Act (42 U.S.C. 1437f(o)(4)(D));

App. 128
(v) A low-income or moderate-income family that is
displaced as a result of the prepayment of the
mortgage or voluntary termination of an insurance
contract on eligible low-income housing as defined
in § 248.101 of this title;
(vi) A low-income family that qualifies for voucher
assistance as a non-purchasing family residing in a
project subject to a resident homeownership
program under § 248.173 of this title.
*****
6. Cal. Welf. & Inst. Code § 12001 provides in full text:
Legislative intent
It is the intent of this chapter to implement a state
supplementation program pursuant to Title XVI of the
Social Security Act and a program for state services to
the aged, blind or disabled.
7. Cal. Welf. & Inst. Code § 12002 provides in full text:
Purpose of chapter
It is the object and purpose of this chapter to
provide persons whose need results from age, blindness
or disability with assistance and services which will
encourage them to make greater efforts to achieve
self–care and self–maintenance, whenever feasible, and
to enlarge their opportunities for independence.

App. 129
8. Cal. Welf. & Inst. Code § 12300 provides:
Purpose of article; Supportive services
(a) The purpose of this article is to provide in every
county in a manner consistent with this chapter and
the annual Budget Act those supportive services
identified in this section to aged, blind, or disabled
persons, as defined under this chapter, who are unable
to perform the services themselves and who cannot
safely remain in their homes or abodes of their own
choosing unless these services are provided.
(b) Supportive services shall include domestic services
and services related to domestic services, heavy
cleaning, personal care services, accompaniment by a
provider when needed during necessary travel to
health–related appointments or to alternative resource
sites, yard hazard abatement, protective supervision,
teaching and demonstration directed at reducing the
need for other supportive services, and paramedical
services which make it possible for the recipient to
establish and maintain an independent living
arrangement.
(c) Personal care services shall mean all of the
following:
(1) Assistance with ambulation.
(2) Bathing, oral hygiene, and grooming.
(3) Dressing.
(4) Care and assistance with prosthetic devices.
(5) Bowel, bladder, and menstrual care.
(6) Repositioning, skin care, range of motion
exercises, and transfers.
(7) Feeding and assurance of adequate fluid intake.

App. 130
(8) Respiration.
(9) Assistance
medications.

with

self–administration

of

*****
(e) Where supportive services are provided by a person
having the legal duty pursuant to the Family Code to
provide for the care of his or her child who is the
recipient, the provider of supportive services shall
receive remuneration for the services only when the
provider leaves full–time employment or is prevented
from obtaining full–time employment because no other
suitable provider is available and where the inability of
the provider to provide supportive services may result
in inappropriate placement or inadequate care.
These providers shall be paid only for the following:
(1) Services related to domestic services.
(2) Personal care services.
(3) Accompaniment by a provider when needed
during necessary travel to health–related
appointments or to alternative resource sites.
(4) Protective supervision only as needed because of
the functional limitations of the child.
(5) Paramedical services.
(f) To encourage maximum voluntary services, so as to
reduce governmental costs, respite care shall also be
provided. Respite care is temporary or periodic service
for eligible recipients to relieve persons who are
providing care without compensation.
(g) A person who is eligible to receive a service or
services under an approved federal waiver authorized

App. 131
pursuant to Section 14132.951, or a person who is
eligible to receive a service or services authorized
pursuant to Section 14132.95, shall not be eligible to
receive the same service or services pursuant to this
article. In the event that the waiver authorized
pursuant to Section 14132.951, as approved by the
federal government, does not extend eligibility to all
persons otherwise eligible for services under this
article, or does not cover a service or particular
services, or does not cover the scope of a service that a
person would otherwise be eligible to receive under this
article, those persons who are not eligible for services,
or for a particular service under the waiver or Section
14132.95 shall be eligible for services under this article.
(h)
(1) All services provided pursuant to this article shall
be equal in amount, scope, and duration to the same
services provided pursuant to Section 14132.95,
including any adjustments that may be made to those
services pursuant to subdivision (e) of Section
14132.95.
(2) Notwithstanding any other provision of this article,
the rate of reimbursement for in–home supportive
services provided through any mode of service shall not
exceed the rate of reimbursement established under
subdivision (j) of Section 14132.95 for the same mode of
service unless otherwise provided in the annual Budget
Act.
(3) The maximum number of hours available
under Section 14132.95, Section 14132.951, and this
section, combined, shall be 283 hours per month. Any

App. 132
recipient of services under this article shall receive no
more than the applicable maximum specified in Section
12303.4.
9. Cal. Welf. & Inst. Code § 14132.951 provides:
(a) It is the intent of the Legislature that the State
Department of Health Services seek approval of a
Medicaid waiver under the federal Social Security Act
in order that the services available under Article 7
(commencing with Section 12300) of Chapter 3, known
as the In-Home Supportive Services program, may be
provided as a Medi-Cal benefit under this chapter, to
the extent federal financial participation is available.
The waiver shall be known as the “IHSS Plus waiver.”
(b) To the extent feasible, the IHSS Plus waiver
described in subdivision (a) shall incorporate the
eligibility requirements, benefits, and operational
requirements of the In-Home Supportive Services
program. The director shall have discretion to modify
eligibility requirements, benefits, and operational
requirements as needed to secure approval of the
Medicaid waiver.
(c) Upon implementation of the IHSS Plus waiver, and
to the extent federal financial participation is available,
the services available through the In-Home Supportive
Services program shall be furnished as benefits of the
Medi-Cal program through the IHSS Plus waiver to
persons who meet the eligibility requirements of the
IHSS Plus waiver. The benefits shall be limited by the
terms and conditions of the IHSS Plus waiver and by
the availability of federal financial participation.

App. 133
(d) Upon implementation of the IHSS Plus waiver:
(1) A person who is eligible for the IHSS Plus waiver
shall no longer be eligible to receive services under the
In-Home Supportive Services program to the extent
those services are available through the IHSS Plus
waiver.
(2) A person shall not be eligible to receive services
pursuant to the IHSS Plus waiver to the extent those
services are available pursuant to Section 14132.95.
(e) Services provided pursuant to this section shall be
rendered, under the administrative direction of the
State Department of Social Services, in the manner
authorized in Article 7 (commencing with Section
12300) of Chapter 3, for the In-Home Supportive
Services program.
*****

App. 134

APPENDIX H
IN THE SUPREME COURT OF THE
STATE OF CALIFORNIA
No. S249593
[Filed: April 15, 2019]
_______________________________________
KERRIE REILLY,
)
)
Petitioner-Appellant,
)
)
v.
)
)
MARIN HOUSING AUTHORITY,
)
)
Respondent-Appellee.
)
_______________________________________)
After the Decision of the First Appellate District,
Division Two, Case No. A149918
Affirming the Judgment of the Superior Court for the
State of California,
County of Marin (Hon. Paul M. Haakenson),
Case No. CIV 1503896
BRIEF OF THE UNITED STATES AS AMICUS
CURIAE SUPPORTING MARIN HOUSING
AUTHORITY

App. 135
Of Counsel:
PAUL COMPTON
General Counsel
MINIARD CULPEPPER
Acting Associate General Counsel for Litigation
DAVID M. REIZES
Assistant General Counsel for Assisted Housing & Civil
Rights Litigation
ALEXANDRA N. IORIO
Trial Attorney
U.S. Department of Housing & Urban Development
JOSEPH H. HUNT
Assistant Attorney General
ALISA B. KLEIN
MELISSA N. PATTERSON
(CA BAR #255409)
*BRAD HINSHELWOOD
Attorneys, Appellate Staff
Civil Division, Room 7256
U.S. Department of Justice
950 Pennsylvania Avenue NW
Washington, DC 20530
(202) 514-7823
[Table of Contents and Table of Authorities
have been omitted for purposes of this Appendix]

App. 136
We respectfully submit this brief in response to the
Court’s order inviting the views of the United States.
Petitioner Kerrie Reilly receives a rental assistance
voucher under Section 8 of the United States Housing
Act of 1937, 42 U.S.C. § 1437f(o). For all Section 8
voucher recipients, the amount of the voucher is
calculated by reference to the recipient’s annual
income. See 24 C.F.R. § 5.628. Annual income is
defined as “all amounts, monetary or not,” that an
individual receives during the year, unless “specifically
excluded” by the regulation. Id. § 5.609(a). One such
exclusion is for “[a]mounts paid by a State agency to a
family with a member who has a developmental
disability and is living at home to offset the cost of
services and equipment needed to keep the
developmentally disabled family member at home.” Id.
§ 5.609(c)(16). As we explain below, the Superior Court
and the Court of Appeal both correctly held that
payments made directly to Reilly under California’s
In-Home Supportive Services program to compensate
her for time spent caring for her disabled daughter do
not qualify for this exclusion, and thus are properly
included in calculating Reilly’s annual income.
STATEMENT
A. Section 8 of the United States Housing Act of
1937 authorizes the U.S. Department of Housing and
Urban Development (HUD) to provide rental assistance
“[f]or the purpose of aiding low-income families in
obtaining a decent place to live and of promoting
economically mixed housing.” 42 U.S.C. § 1437f(a). In
general, there are two types of Section 8 assistance:
“project-based” assistance and “tenant-based”

App. 137
assistance. 24 C.F.R. § 982.1(b)(1). Project-based
assistance is tied to specific housing units. Id.; see also
id. § 886.309. Owners of such units enter into
long-term contracts with public housing authorities or
HUD, under which they agree to rent the units to lowincome families who meet Section 8 eligibility
requirements in exchange for rental assistance
payments from the government. See 24 C.F.R.
§ 886.311; 42 U.S.C. § 1437f(b), (f)(6). Tenant-based
assistance is tenant-specific and travels with the
tenant if the tenant moves. 24 C.F.R. § 982.1(b)(1)-(2);
see also 42 U.S.C. § 1437f(f)(7), (o). In the tenant-based
program, HUD provides funding to local public housing
authorities that administer the program and provide
vouchers which eligible tenants can use to pay the rent
at the unit of their choosing. See 24 C.F.R. § 982.1(b);
42 U.S.C. § 1437f(f)(7). The tenant-based Section 8
program is known as the “Housing Choice Voucher”
program. 24 C.F.R. § 982.1(a). Section 8 is not an
entitlement program; Congress appropriates only a
fixed sum for vouchers under both programs each year,
and not every otherwise qualified family receives a
voucher.
Under both the project-based and tenant-based
voucher programs, tenants are required to pay a
statutorily prescribed portion of the rent, typically
equal to thirty percent of the tenant family’s “adjusted
income” or ten percent of their gross income, whichever
is greater. 42 U.S.C. § 1437f(o)(2); see also id.
§ 1437a(a)(1); 24 C.F.R. § 5.628(a). The federal
government pays the balance of the rent, up to a
statutorily capped amount (known as the “payment

App. 138
standard” under the Housing Choice Voucher
program). See 42 U.S.C. § 1437f(c), (o)(1)-(2).
HUD regulations define “[a]nnual income” broadly
as “all amounts, monetary or not,” which a family
member receives unless “specifically excluded” by
regulation. 24 C.F.R. § 5.609(a); see id. § 5.609(b)
(providing illustrative list of amounts counted as
“annual income”). One of the exclusions removes from
annual income “[a]mounts paid by a State agency to a
family with a member who has a developmental
disability and is living at home to offset the cost of
services and equipment needed to keep the
developmentally disabled family member at home.” Id.
§ 5.609(c)(16).
B. California’s In-Home Supportive Services
program (IHSS), Cal. Welf. & Inst. Code § 12300 et seq.,
“provides supportive services to aged, blind, or disabled
persons” to help those individuals “avoid
institutionalization.” Basden v. Wagner, 181 Cal. App.
4th 929, 931 (2010). IHSS operates in part under the
auspices of the Medicaid program, a cooperative
program between the federal government and the
States that provides medical assistance to certain
persons “whose income and resources are insufficient
to meet the costs of necessary medical services.” 42
U.S.C. § 1396-1. States that choose to participate in
Medicaid must develop a “plan for medical assistance”
for approval by the Secretary of the U.S. Department
of Health and Human Services. Id. § 1396a. As part of
this plan, States may develop home- and
community-based care programs for individuals with
disabilities and receive partial federal reimbursement

App. 139
for the cost of care. See 42 U.S.C. § 1396n(c); Sanchez
v. Johnson, 416 F.3d 1051, 1054 (9th Cir. 2005).
Under the IHSS program, supportive services may
be provided by a variety of entities, including by
employees of a county, nonprofit consortiums, public
authorities, voluntary nonprofit or proprietary
agencies, or individuals. See Cal. Welf. & Inst. Code
§§ 12301.6, 12302. The IHSS program also provides
that parents may be compensated as supportive
services providers in certain circumstances.
Specifically, when a parent is the provider, the parent
“shall receive remuneration for those services only
when the provider leaves full-time employment or is
prevented from obtaining full-time employment
because no other suitable provider is available and
where the inability of the provider to provide
supportive services may result in inappropriate
placement or inadequate care.” Id. § 12300(e). Parent
providers are also compensated only for specific types
of services. Id. § 12300(e)(1)-(5).
C. Petitioner Kerrie Reilly provides full-time care
for her developmentally disabled adult daughter. Reilly
v. Marin Hous. Auth., 23 Cal. App. 5th 425, 428 (2018).
Reilly receives payments from the IHSS program for
this care. Id. Since 1998, Reilly has also received a
rental assistance voucher through the Housing Choice
Voucher Program. Id. at 429. Reilly originally received
a voucher for renting a three-bedroom unit to
accommodate herself and two daughters. Id. One
daughter moved out in 2004, but Reilly did not inform
the Marin Housing Authority (MHA), which
administers Reilly’s voucher, of her daughter’s

App. 140
departure until 2009. Id. As a result, MHA determined
that Reilly was required to repay $16,011 in voucher
funds, and Reilly entered into a payment agreement
with MHA. Id. After Reilly breached the agreement,
MHA sought to terminate Reilly’s voucher. Id. Reilly
contested the termination, arguing that MHA had
miscalculated her voucher because the payments she
received from IHSS should have been excluded from
her income as “[a]mounts paid by a State agency to a
family with a member who has a developmental
disability and is living at home to offset the cost of
services and equipment needed to keep the
developmentally disabled family member at home.” 24
C.F.R. § 5.609(c)(16).
Both the Superior Court and the Court of Appeal
rejected Reilly’s argument. As the Court of Appeal
explained, a payment to “offset the cost of services”
must be payments to offset “costs that the family itself
incurs.” Reilly, 23 Cal. App. 5th at 434. And the term
“cost” is naturally read to mean “the amount or
equivalent paid or charged for something; price.” Id. at
435 (quoting Merriam-Webster’s Collegiate Dictionary
262 (10th ed. 2001)). Because Reilly provides care
herself instead of employing another person to do so,
“the cost of services that Reilly provides her daughter
is, to Reilly, zero.” Id. This understanding also “treats
comparably two families with a developmentally
disabled family member” by treating the IHSS
payments as a “substitute in the family’s budget for the
money the parent would have earned outside the home”
if the parent had opted to pay an outside provider for
care. Id. at 437.

App. 141
ARGUMENT
IHSS PAYMENTS TO MS. REILLY WERE PROPERLY
TREATED AS INCOME BECAUSE THEY DO NOT
“OFFSET THE COST OF SERVICES AND EQUIPMENT”
A. HUD regulations exclude from income
“[a]mounts paid by a State agency to a family with a
member who has a developmental disability and is
living at home to offset the cost of services and
equipment needed to keep the developmentally
disabled family member at home.” 24 C.F.R.
§ 5.609(c)(16). As the Superior Court and Court of
Appeal correctly concluded, the natural reading of this
regulation excludes payments made directly to Reilly
for the care of her own daughter. Such payments do not
“offset the cost of services” that Reilly provides; they
compensate her for those services.
This understanding of the regulation flows from the
usual meaning of its terms. Generally, the “cost” of
something is its price in monetary terms. See, e.g.,
Oxford English Dictionary 988 (2d ed. 1989) (defining
“cost” as “[t]hat which must be given or surrendered in
order to acquire, produce, accomplish, or maintain
something; the price paid for a thing); Webster’s Third
New International Dictionary 514 (1967) (defining
“cost” as “the amount or equivalent paid or given or
charged or engaged to be paid or given for anything
bought or taken in barter or for service rendered;
charge, price”). Similarly, to “offset” something is “[t]o
set off as an equivalent against something else or part
of something else; to balance by something on the other
side or of contrary nature.” Oxford English Dictionary
738 (2d ed. 1989); see Webster’s Third New

App. 142
International Dictionary 1566 (1967) (“to place over
against: balance: counterbalance, compensate”). As this
definition implies—and as the Court of Appeal
correctly observed—a payment made to “offset” a “cost”
“must go to the same entity that incurs the cost.” Reilly
v. Marin Hous. Auth., 23 Cal. App. 5th 425, 434 (2018).
In the context of § 5.609(c)(16), that entity is the
“family” that incurs the monetary cost of “services and
equipment” in caring for a developmentally disabled
family member.
This straightforward understanding of the terms of
the regulation resolves Reilly’s case. Reilly is
compensated by IHSS for the time she spends caring
for her daughter. Reilly thus incurs no “cost of services
and equipment” that could be “offset,” because she pays
no monetary price for the care that her daughter
receives; “the cost of services that Reilly provides her
daughter is, to Reilly, zero.” Reilly, 23 Cal. App. 5th at
435. Amounts Reilly receives from IHSS therefore are
not excluded from her income when calculating her
housing voucher.
Although this plain-meaning understanding is
sufficient, this interpretation also accords with the
basic policy objectives of the regulation. See People v.
Shabazz, 38 Cal. 4th 55, 68 (2006) (“[I]f a statute is
amenable to two alternative interpretations, the one
that leads to the more reasonable result will be
followed.”). As HUD explained in promulgating
§ 5.609(c)(16), the exclusion exists because “families
that strive to avoid institutionalization should be
encouraged, and not punished.” Combined Income &
Rent, 60 Fed. Reg. 17,388, 17,389 (Apr. 5, 1995). The

App. 143
regulation pursues this goal in part by ensuring that
families that choose different means of keeping the
developmentally disabled family member at home are
treated evenhandedly. As the Court of Appeal
explained, the plain-meaning understanding of the
regulation treats identically “two families with a
developmentally disabled family member: one family in
which a third party cares for the disabled person, and
the other in which a parent does.” Reilly, 23 Cal. App.
5th at 437. If a family relies on third-party care, the
family’s costs for services and equipment to provide
that care are excluded from income when calculating
the amount of the housing voucher. In that scenario,
any money that the family earns from working outside
the home while the third party provides care is treated
as income. Reilly, however, is compensated directly for
the care that she provides to her daughter, without any
corresponding outlay. That compensation substitutes
for income Reilly could otherwise earn for working
outside the home, and is therefore treated as income
under the regulation. See id. at 438; see also Cal. Welf.
& Inst. Code § 12300(e) (providing that a parent
provider of care receives payment from IHSS “only
when the provider leaves full-time employment or is
prevented from obtaining full-time employment”).
This interpretation also accords with the only other
case addressing the meaning of § 5.609(c)(16). In
Anthony v. Poteet Housing Authority, the Fifth Circuit
addressed the situation of a mother (Anthony) whose
son received services through STAR+PLUS, Texas’s
equivalent of the IHSS program. 306 F. App’x 98, 99
(2009). Anthony was hired by a private attendant
services company that delivered STAR+PLUS services

App. 144
on the State’s behalf, and was assigned to care for her
own son. Id. at 100. Anthony asserted that the income
she received for caring for her son should be excluded
from the calculation of her income under § 5.609(c)(16).
Id. at 101. The Fifth Circuit rejected that argument,
holding that “the regulation is clear” that “[o]ne must
incur costs before they can be offset,” and that Anthony
had “incurred no costs which must be offset with state
funds.” Id. Although the payments to Anthony
“coincide[d] with state funds that are set aside for her
son’s care,” that fact did “not make that income a form
of reimbursement.” Id. at 101-02. And while Anthony
contended that the services provided “have a cost,” the
Fifth Circuit observed that the services were “free”
from Anthony’s perspective: “[s]he has no out-of-pocket
expenses—‘costs’—that must be reimbursed or ‘offset’
by the state.” Id. at 102.
B. Reilly argues (Br. 14-16) that the term “cost” in
§ 5.609(c)(16) does not have its usual meaning of a
monetary “price,” but instead refers to the broader set
of “sacrifice[s]” of “time, freedom, and energy” that
families with developmentally disabled members make
on a daily basis. HUD recognizes the considerable
challenges that families like Reilly’s face. But Reilly
identifies no textual reason to displace the “more
common and concrete” meaning of “cost” as referring to
the monetary price paid for something. Reilly, 23 Cal.
App. 5th at 435. And in the context of § 5.609(c)(16),
reading “cost” to refer to a monetary price paid is
further reinforced by the fact that the regulation also
refers to the “cost . . . of equipment,” which is generally
understood to have a monetary cost. For the same
reasons, the Court of Appeal correctly rejected the

App. 145
suggestion that § 5.609(c)(16) excludes from income the
“opportunity cost” Reilly incurs by offsetting Reilly’s
“loss of income in staying home to care for her
daughter.” Reilly, 23 Cal. App. 5th at 434-35. The
regulation excludes from income amounts paid “to
offset the cost of services and equipment”—in other
words, the actual outlay by the family—not the
opportunity cost of providing services.
Reilly looks for textual support by comparing
§ 5.609(c)(16) to other exclusions in the same
regulation, contending that other provisions contain
language limiting their “coverage to reimbursement for
. . . out-of-pocket expenses.” Br. 17; see Br. 20-21; Reply
6-7. To be sure, other exclusions from income use the
phrase “specifically for or in reimbursement of” certain
expenses or costs. See 24 C.F.R. § 5.609(c)(4) (excluding
“[a]mounts received by the family that are specifically
for, or in reimbursement of, the cost of medical
expenses for any family member”); id. § 5.609(c)(8)(iii)
(excluding “[a]mounts received by a participant in
other publicly assisted programs which are specifically
for or in reimbursement of out-of-pocket expenses
incurred . . . and which are made solely to allow
participation in a specific program”). But a drafter need
not employ precisely the same language to accomplish
the same ends; just as “[d]ifferent bills, drafted by
different authors, passed at different times, might well
use different language to convey the same basic rule,”
United Riggers & Erectors, Inc. v. Coast Iron & Steel
Co., 4 Cal. 5th 1082, 1093 (2018), exclusions from
income promulgated over time may use different
formulations to reach the same result. And nothing in
either § 5.609(c)(4) or § 5.609(c)(8)(iii)—both of which

App. 146
predated HUD’s addition of § 5.609(c)(16)—changes the
ordinary meaning of “cost” in § 5.609(c)(16), much less
what it means to “offset the cost of services and
equipment.”
Reilly also suggests that § 5.609(c)(16) must be read
broadly because of the public policy goals the
exclusions from income serve. Br. 22-24. But
§ 5.609(c)(16) does not categorically exclude from
income all “amounts” that a family receives through
IHSS and similar programs; it limits the exclusion to
amounts paid “to offset the cost of services and
equipment.” Although the exclusion is designed to
encourage families to provide care for developmentally
disabled family members at home, it does not pursue
that goal by ignoring the material differences between
families with members who use state support to work
outside the home and those who receive the same
support in the form of compensation for work
performed in the home. See CTS Corp. v. Waldburger,
134 S. Ct. 2175, 2185 (2014) (observing that no
provision “pursues its purposes at all costs” (quotation
marks omitted)); Sonic-Calabasas A, Inc. v. Moreno, 57
Cal. 4th 1109, 1167 (2013) (same). To the extent that
Reilly believes that the IHSS program itself should be
operated in a more generous fashion, see Br. 31-33,
those concerns are not a reason to disregard the plain
meaning of § 5.609(c)(16).
Reilly’s suggestion that the regulation treats
similarly situated families equally because no family
would ever see its rent increase when it receives IHSS
payments, Br. 30, disregards the differences among
families that the regulation is designed to respect. If

App. 147
Reilly is correct that many families do not use IHSS
funds to enable a family member to work (Br. 32), then
it is all the more anomalous that a family that receives
IHSS payments as compensation for a parent
performing in-home care should have those payments
excluded from income in voucher calculations.
Families, like Reilly’s, that receive IHSS funds as
compensation would be able to spend those funds on
household expenses without devoting any greater
amount to rent. But families that rely on third parties
for care, and do not earn other income by working
outside the home, would have no comparable source of
funds for household expenses, while receiving a
voucher identical to Reilly’s. Section 5.609(c)(16)
prevents this sort of inequity by distinguishing
between costs actually incurred and paid by the family
and amounts paid to the family as compensation.
Finally, Reilly suggests that the federal tax
treatment of IHSS payments is relevant to the
interpretation of § 5.609(c)(16). Br. 33. But HUD’s
regulations governing income look broadly to “all
amounts” a family receives, regardless of their
particular tax treatment. 24 C.F.R. § 5.609(a); see, e.g.,
id. § 5.609(b)(1) (including in income “[t]he full amount,
before any payroll deductions, of wages and salaries”).
That IHSS payments may be “excludable from gross
income” in calculating federal income tax, Br. 33, does
not affect whether they qualify as income for purposes
of calculating the amount of a recipient’s housing
voucher, nor does it determine whether they are
payments made “to offset the cost of services and
equipment” for purposes of § 5.609(c)(16).

App. 148
CONCLUSION
For the foregoing reasons, the judgment of the
Court of Appeal should be affirmed.
Respectfully submitted,
Of Counsel:
PAUL COMPTON
General Counsel
MINIARD CULPEPPER
Acting Associate General Counsel for Litigation
DAVID M. REIZES
Assistant General Counsel for Assisted Housing & Civil
Rights Litigation
ALEXANDRA N. IORIO
Trial Attorney
U.S. Department of Housing & Urban Development
JOSEPH H. HUNT
Assistant Attorney General
ALISA B. KLEIN
__________________________
MELISSA N. PATTERSON
(CA BAR #255409)
*BRAD HINSHELWOOD
Attorneys, Appellate Staff
Civil Division, Room 7256
U.S. Department of Justice
950 Pennsylvania Avenue NW
Washington, DC 20530

App. 149
(202) 514-7823
bradley.a.hinshelwood@usdoj.gov

April 2019
[Certificate of Compliance and Certificate of Service
have been omitted for purposes of this Appendix]

